<html>
<title> - THE ADA AND ENTERTAINMENT TECHNOLO- GIES: IMPROVING ACCESSIBILITY FROM THE MOVIE SCREEN TO YOUR MOBILE DEVICE</title>
<body><pre>[Senate Hearing 113-784]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-784

 THE ADA AND ENTERTAINMENT TECHNOLOGIES: IMPROVING ACCESSIBILITY FROM 
                 THE MOVIE SCREEN TO YOUR MOBILE DEVICE

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

    EXAMINING THE AMERICANS WITH DISABILITIES ACT AND ENTERTAINMENT 
TECHNOLOGIES, FOCUSING ON IMPROVING ACCESSIBILITY FROM THE MOVIE SCREEN 
 TO YOUR MOBILE DEVICE, INCLUDING S. 555, TO AMEND THE AMERICANS WITH 
DISABILITIES ACT OF 1990 TO REQUIRE CAPTIONING AND VIDEO DESCRIPTION AT 
 CERTAIN MOVIE THEATERS, AND S. 556, TO AMEND TITLE 49, UNITED STATES 
    CODE, TO IMPROVE THE ACCESSIBILITY OF ENTERTAINMENT PROGRAMMING 
             PROVIDED BY AIR CARRIERS ON PASSENGER FLIGHTS

                               __________

                              MAY 14, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-635 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont         RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
AL FRANKEN, Minnesota                ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado          PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island     LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin             MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut   TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                      Pamela Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  
























                            C O N T E N T S

                               __________

                               STATEMENTS

                         THURSDAY, MAY 14, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2

                           Witnesses--Panel I

Strauss, Karen Peltz, Deputy Chief, Consumer and Governmental 
  Affairs Bureau, Federal Communications Commission, Washington, 
  DC.............................................................     4
    Prepared statement...........................................     6
Hill, Eve L., Senior Counselor to the Assistant Attorney General 
  for Civil Rights, U.S. Department of Justice, Civil Rights 
  Division, Washington, DC.......................................    13
    Prepared statement...........................................    15

                          Witnesses--Panel II

Phillips, Andrew, Policy Counsel, Law and Advocacy Center, 
  National Association of The Deaf, Silver Spring, MD............    25
    Prepared statement...........................................    27
Beaumon, Betsy, Vice President and General Manager, Literacy 
  Program, the Benetech Initiative, Palo Alto, CA................    30
    Prepared statement...........................................    32
Charlson, Brian, Chair, Information Access Committee, American 
  Council of the Blind, Watertown, MA............................    36
    Prepared statement...........................................    39
Fithian, John, President and CEO, National Association of Theatre 
  Owners, Washington, DC.........................................    42
    Prepared statement...........................................    43

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to questions of Senator Alexander by:
        Andrew Phillips..........................................    57
        Betsy Beaumon............................................    57
        John Fithian.............................................    57

                                 (iii)
 
                  THE ADA AND ENTERTAINMENT TECHNOLO-
  GIES: IMPROVING ACCESSIBILITY FROM THE MOVIE SCREEN TO YOUR MOBILE 
                                 DEVICE

                              ----------                              


                         TUESDAY, MAY 14, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin and Alexander.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    The title of the hearing today is, ``The Americans with 
Disabilities Act and Entertainment Technologies: Improving 
Accessibility from the Movie Screen to Your Mobile Device.''
    Earlier this year, we celebrated the 25th anniversary of 
the appointment of Gallaudet University's first deaf president, 
Dr. I. King Jordan. This historic appointment, the product of 
the ``Deaf President Now'' student protests--I might add led by 
Greg Hlibok, who is sitting right there. You still look as 
young as you were then, Greg. Thanks for being here--but that 
movement was a catalyzing moment for the deaf community and for 
the disability community more broadly. Keep in mind, we were 
then working on the Americans with Disabilities Act, and the 
Deaf President Now student movement gave a real life and energy 
to getting the ADA through. As President Jordan said in his 
acceptance speech, the deaf community would, ``No longer accept 
limits on what we can achieve.''
    Two years after the Deaf President Now protest, I had the 
distinct honor to lead the Senate in passing the Americans with 
Disabilities Act, which expanded President Jordan's message to 
the cross-disability community. Armed with the ADA, the 
American disability community would likewise ``no longer accept 
limits'' on what they can achieve.
    Today's hearing creates an opportunity for our committee, 
which has primary jurisdiction over the ADA, to examine how 
technology has evolved since the law's passage in 1990, and the 
degree to which our national policies regarding equal access 
have kept up with the ever-changing field of technology.
    On a personal level, as the younger brother of Frank 
Harkin, who was deaf, and as a long-time advocate for captioned 
content, I am concerned that in the second decade of the 21st 
century, Americans who are deaf and hard of hearing continue to 
have difficulty accessing captioned versions of movies, videos, 
and other entertainment content on an equal basis with their 
hearing peers.
    Similarly, I know that my friends in the blindness and low 
vision communities continue to have difficulties obtaining 
video description of entertainment content; that is, where a 
narrator describes what is happening on the screen for viewers 
who cannot see the screen, again, on an equal basis with their 
sighted peers.
    Now, there is no question that we have made progress in the 
areas of captioning and video description in the past couple of 
decades, and we will hear about some of that today. But I also 
wanted to use this hearing to identify the remaining gaps to 
equal access, and the most effective strategies to fill those 
gaps moving forward.
    Earlier this year, I introduced two bills to address 
egregious gaps that I have personally noticed as a movie lover 
and as an air traveler. These bills are designed to allow 
Americans with visual or hearing impairments to enjoy going to 
the movies and watching in-flight entertainment through 
captioning and video description, just as they can at home.
    I might just add I just flew from California to here 
yesterday, and so, you get these little movie devices you can 
watch movies on. There must have been, I would say probably 25 
to 30 to 40 different movies on there. Two were captioned. Now, 
any time I go to get a DVD from Netflix or something, every one 
of them is captioned. I can get old movies, old classic movies, 
all the old John Wayne movies are all closed-captioned now. I 
can get the captioning right on my DVD. If I can do that, you 
are telling me they cannot put that on the devices in the 
airplane? Well, as I said, two of them were captioned; the rest 
were not.
    The two bills, one is S. 555, that is the CINEMA Act to 
amend Title III of the ADA to require movie theater complexes 
with two or more screens to make captioning and video 
description available for all films at all showings.
    The second bill, S. 556, would require air carriers to make 
captioning and video description available for visually 
displayed entertainment programs carried on commercial flights.
    Today, we will hear from our two leading Federal 
enforcement agencies, the Department of Justice and the Federal 
Communications Commission, along with consumers, a social 
entrepreneur, and a representative of theater owners. They will 
give us their perspectives regarding what is being done to 
improve accessibility and how best to address the ongoing 
challenges to realizing the vision of the ADA in these new, 
emerging technologies that we have.
    I very much appreciate the written testimony that has been 
submitted. I look forward to hearing from all of you today.
    I will yield now to our Ranking Member, Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Tom Harkin spent his nearly 40 years in Congress addressing 
the challenges facing individuals with disabilities, and this 
is a part of that today, and I am glad to be a part of the 
hearing. It builds on his legacy for fighting for inclusion, 
and it focuses on the arts and entertainment access to it, 
removing those barriers will make productions such as the Grand 
Ole Opry, movie theaters, and others more accessible to more 
people.
    We want to see what can be done to increase accessibility 
to people in all walks of life. In a country as diverse as 
ours, the best way to increase entertainment opportunities for 
individuals with disabilities is to ensure that the private 
sector and Government are working closely together.
    I am proud of some good examples in Tennessee. The American 
Foundation for the Blind, for example, recently presented the 
Regal Entertainment Group, based in Knoxville, with an Access 
Award for its work to improve movie theater accessibility. 
Regal Entertainment operates one of the largest theater 
circuits in the United States, more than 400 theaters offering 
the Sony Entertainment Access System. Congratulations to Regal.
    The System is available for any individual that wants 
captioning or descriptive audio, and the System is not visible 
or audible to other moviegoers.
    Other businesses, other organizations such as Vanderbilt 
University, are taking the lead helping to make entertainment 
and other enriching cultural endeavors more accessible for 
individuals with disability. Vanderbilt hosts the Tennessee 
Disability Pathfinder, a statewide clearinghouse of disability-
related resources. This includes Tennessee art and music 
programs across the State for individuals with disabilities.
    Since 1994, the Vanderbilt Kennedy Center has sponsored 
exhibits of art by individuals with disabilities to highlight 
their diverse range of talent.
    I look forward to hearing more from witnesses about how we 
can work together, public and private, to improve accessibility 
of entertainment technology from the movie theater to mobile 
devices.
    The Chairman. Thank you very much, Senator Alexander.
    Again, I apologize for starting late, but we thought we 
were going to have a vote. I was over there too.
    Senator Alexander. Yes.
    The Chairman. I thought we were going to have a vote.
    Senator Alexander. I think not.
    The Chairman. I do not think we are going to have a vote, 
so hopefully we can move ahead without interruption.
    For our first panel, we will hear from Ms. Eve Hill, Senior 
Counselor to the Assistant Attorney General for civil rights at 
the U.S. Department of Justice, Civil Rights Division. She is 
responsible for the oversight of their disability rights 
enforcement. She has worked on a myriad of issues including the 
United Nations Convention on the Rights of Persons with 
Disabilities, accessibility of Web sites and digital 
technology, and enforcement of Olmstead Community Integration 
requirements.
    We will also hear now from Karen Peltz Strauss, Deputy 
Bureau Chief for the Federal Communications Commission's 
Consumer and Governmental Affairs Bureau. As Deputy Bureau 
Chief, Ms. Strauss oversees the FCC's Disability Rights Office. 
Ms. Strauss is an expert on issues concerning 
telecommunications and television access for people with 
disabilities.
    We are pleased to have both of you here as our lead-off 
witnesses, and then I will introduce our second panel after we 
finish with this.
    Both of your statements will be made a part of the record 
in their entirety. We will start with Ms. Strauss. Let's go 
from left to right, Ms. Strauss and then Ms. Hill.
    Welcome back to the committee. You have been here before. 
Appreciate you coming back. Please proceed.

 STATEMENT OF KAREN PELTZ STRAUSS, DEPUTY CHIEF, CONSUMER AND 
GOVERNMENTAL AFFAIRS BUREAU, FEDERAL COMMUNICATIONS COMMISSION, 
                         WASHINGTON, DC

    Ms. Strauss. Thank you. It is nice to be back.
    Good afternoon, Chairman Harkin, Ranking Member Alexander, 
and members of the committee.
    Thank you for the opportunity to address the Federal 
Communications Commission's efforts on accessible 
communications technologies.
    We often take advantage of the ease with which we can 
communicate and get information. Communication technologies 
truly have the power to transform our lives by allowing us to 
find jobs, get educated, make purchases, and enjoy 
entertainment. When technology is successful for people with 
disabilities, it can break down not only physical, but 
attitudinal barriers and bridge gaps.
    However, when there are obstacles to technology, the 
consequences can be dire. Opportunities for growth and 
independence are cutoff, as are the tools needed to improve 
one's self-sufficiency.
    I have been fortunate to have worked on efforts to expand 
disability access to communication technologies for the past 30 
years, and over this time, have watched the same patterns of 
events repeat themselves: a new technology is introduced. It is 
not accessible to people with disabilities because they lack 
the market strength to convince companies to incorporate 
access. The Government steps in and the industry typically 
willingly provides the necessary access.
    The good news is that once incorporated, access benefits 
not only people for whom it was originally designed, but the 
general public. Captioning is the best example of this. It is 
now routinely used by children and adults learning to read as a 
first or second language, and virtually everyone who goes to 
noisy gyms or restaurants.
    The bad news is that access usually comes far later than 
when the technology was first introduced into the mainstream. 
People who are deaf waited nearly 70 years to regain some 
access to the movies after the talkies came in 1927. People who 
are blind had enjoyed access to computers and TV sets in the 
1980s, but then lost that access with the introduction of 
graphics and onscreen menus. People who are hard of hearing had 
to wait at least 10 years after the introduction of digital 
cell phones before they could use them with hearing aids.
    The lack of access to television followed the same path. 
Television not only provides entertainment, news, and public 
affairs, it more indirectly exposes Americans to cultural mores 
and societal norms.
    I remember while working at Gallaudet in the 1980s, a deaf 
woman came into our legal clinic upset that her medical tests 
came back negative. Not being able to watch TV with caption, 
she had not become acquainted with the terminology of medical 
shows. She was unaware that a negative test was actually a good 
thing. Without captions, people with hearing loss were excluded 
from a marvelous innovation that had radically altered the way 
that hearing Americans acquired information and hearing 
children could learn about potential role models who could 
influence their lives.
    In the 1970s, we got our first taste, literally, of 
television with open captions on ``The French Chef '' with 
Julia Child. But it was not until the 1980s that closed-
captioning on TV truly took off. I am proud to say that the FCC 
played a role in this effort by authorizing the use of line 21 
technology in 1976.
    But the only way to watch captions at that time was with a 
standalone decoder, which was expensive, difficult to find, and 
hard to set up. As a consequence as you know, Senator, by the 
close of the 1980s, relatively few of the devices had been 
sold, and the lack of a sizable market made TV producers and 
advertisers question their captioning investment.
    With the future of captioning threatened, the Government 
stepped in, first with the Television Decoder Circuitry Act of 
1990, requiring captioning capability on all TV sets with 
screens 13-inches or larger, and again in 1996, with closed-
captioning mandates.
    The FCC quickly implemented each of these laws, and our 
rules now require closed captions on nearly all new English and 
Spanish language TV programs, and allow viewers to tailor 
captions to their individual needs by controlling the font, 
color, size, and other features.
    We also have rules that specifically require both visual 
and audio access to information about emergencies on TV. The 
importance of such access cannot be overstated. Consider not 
having access to information about the recent hurricanes in the 
East, September 11th, or the Boston bombings.
    But at the turn of the century, it became clear that the 
above laws were not keeping up with evolving digital and 
Internet technologies. The new innovations promised enormous 
opportunity for the American public, but again threatened to 
create new barriers that could leave people with disabilities 
behind if they did not include access features.
    To prevent this, and recognizing that the marketplace was 
not likely to protect such access, in 2010 Congress passed the 
21st century Communications and Video Accessibility Act, or the 
CVAA. Under the new law, the FCC has put into place a series of 
mandates to ensure the accessible design of emerging 
communication technologies.
    Our new rules require a captioned program shown on TV to 
retain captions when re-shown on the Internet, and require 
nearly all video devices of any size, including computers, 
laptops, tablets, and even smartphones to be capable of 
displaying captions. They also require some video description 
on certain TV networks, and cable and satellite channels, as 
well as the ability for Americans who are blind or visually 
impaired to access video description and emergency information 
on the secondary audio streams of video devices.
    We also have new rules requiring access to all types of 
advanced communication services and products, as well as to Web 
browsers on mobile phones. Finally, we have a new program that 
distributes successful communication and information technology 
to people who are both deaf and blind, a segment of the 
population that previously had been ignored by Federal 
communications policy. And we are not done.
    We are now working on rules that will be released in 
October to ensure that controls and onscreen menus on TV's and 
set top boxes are accessible to people who can't see. We will 
also adopt rules to make it easier to activate accessibility 
features on video devices.
    In conclusion, over the past decade, Federal policy has 
recognized the importance of communication technologies as 
tools of learning, independence, and social integration. 
Tomorrow's technologies are likely to continue to hold 
tremendous promise in terms of increased productivity and 
empowerment for people with disabilities.
    The FCC takes seriously its challenge now and in the 
future, to ensure that our accessibility policies keep up with 
these emerging technologies. We will continue our efforts to 
ensure that, as directed by Congress, access is included as 
products and services are designed so that people with 
disabilities are not left behind, and so that we can avoid the 
need to retrofit later on, which can be expensive and 
burdensome and typically is not as effective.
    To achieve our goals, we will continue to seek out the 
assistance and the collaboration of industry and consumer 
stakeholders to build mutually agreeable solutions.
    Thank you for the opportunity to appear before you today. I 
would be happy to answer any of your questions.
    [The prepared statement of Ms. Strauss follows:]
               Prepared Statement of Karen Peltz Strauss
                              introduction
    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
members of the committee, thank you for the opportunity to appear today 
to address the Federal Communications Commission's (FCC or Commission) 
regulatory efforts on closed captioning.
    I have been asked to speak today about my experiences and work with 
respect to captioning, video description and other accessible 
technologies, and how evolving accessible communications technologies 
can have an impact on improving access for people with disabilities. I 
would like to begin with two very brief stories. During the 1980s, 
while I was working for Gallaudet University's National Center for Law 
and Deafness, a legal service clinic for people who were deaf or hard 
of hearing, a deaf client came in, upset with the news that her routine 
medical tests had come back ``negative.'' At the time, TV offered 
little in the way of closed captioning, and so, unlike hearing viewers 
who had heard the phrase countless times on medical TV shows, she was 
unaware that a ``negative'' test result was a good thing. Around the 
same time, a deaf college student sought our help after a run-in with 
the police. Not having ever been able to watch crime shows with 
captions, he was unaware that he had a right to an attorney. By the 
time he came to our law offices, he had already signed a document 
waiving that right.
    We often take advantage of the ease with which we can acquire 
information and may not always stop to think about how the ability to 
get such information--often with the click of a button--facilitates so 
much of what we do in our daily lives. But the general lack of access 
to television shows, from the inception of TV in the 1950s, to the mid-
1990s took its toll on Americans who were deaf or hard of hearing. As 
television began to flood the homes of Americans in the 1960s and 
1970s, it not only provided entertainment; it informed hearing viewers 
about critical news and public affairs information, and more 
indirectly, exposed Americans to the cultural mores and societal norms 
of the times. But people with hearing loss who did not have access to 
this medium missed out on the medical terminology of Dr. Kildare and 
Marcus Welby, M.D. They lacked the opportunity to learn legal jargon 
and courtroom procedures on Perry Mason. And, if they were children, 
they weren't able to benefit from the newscasts, dramas, and even 
comedies that regularly introduced their hearing peers to professions 
to which they could one day aspire. In all, without captions, people 
who were unable to hear the soundtrack were excluded from a marvelous 
technology that was radically altering the way that hearing Americans 
acquired their information.
    Communication technologies have the power to transform our lives in 
many positive ways. When technology is accessible for people with 
disabilities, it can bridge gaps, opening doors to jobs, education, 
recreation, and the commercial marketplace. By way of example, 
accessible broadband technologies can help level the playing field for 
people who cannot see, hear, or easily get around, and thereby break 
down not only physical, but attitudinal barriers for people with 
disabilities. However, when accessibility is forgotten or ignored, and 
physical or technical barriers create obstacles to technological 
innovations, the consequences can be dire. Without access, people with 
disabilities are prevented from having the tools they need to improve 
their productivity and self-sufficiency. Opportunities for growth and 
independence are cut off, access to Internet commerce is denied, and 
even exercising one's civic responsibilities can become a challenge.
    At times, new innovations that are not accessible do not only deny 
the ability to use a future service or product; they inadvertently take 
away access once enjoyed. This occurred with the introduction of the 
``Talkies'' in 1927. Prior to that time, people who were deaf or hard 
of hearing routinely accompanied their hearing relatives and friends on 
evening excursions to the silent movies shown on the big screen. But 
when Hollywood added audio tracks to their visual presentations, the 
new ``talking'' films enhanced movie-going for hearing Americans, but 
created a new barrier for those who had been relying on text to 
understand movie plots. Twenty years passed before Emerson Romero, the 
deaf brother of actor Caesar Romero, attempted to restore this lost 
access by splicing subtitles between the frames of new films. A few 
years later, using a more advanced technique that etched open captions 
right onto a film's finished print, a small enterprise called Captioned 
Films for the Deaf that operated out of Hartford, CT, began 
distributing Hollywood movies to schools for the deaf around the 
country. In 1959, this program was assumed by the U.S. Department of 
Health, Education and Welfare's (HEW) Bureau of Education, which for 
many years, authorized the production, acquisition and distribution of 
captioned theatrical, documentary, and educational films and media 
equipment to schools and deaf organizations around the country.
    While, in this manner, some commercial movies were again made 
available to people with hearing loss (though no longer in cinema 
houses), television in the 1950s and 1960s remained entirely 
inaccessible to people who were deaf or hard of hearing. This began to 
change in 1971, when HEW contracted with Boston's public television 
station, WGBH, to produce open captioned reruns of its most popular 
program, The French Chef, with Julia Child. One and a half years after 
the program was first aired with captions on August 6, 1972, deaf 
viewers also had the opportunity to watch an open captioned version of 
President Richard Nixon's second inauguration only a few hours after it 
aired to the rest of the public, on January 20, 1973.
    The use of open captions began to afford some access to viewers who 
were deaf or hard of hearing, but the television industry's general 
resistance to this technology, which did not allow individual viewers 
to turn captions on and off, prompted television networks, engineers, 
educators, consumers, and the Federal Government to explore other 
strategies for making television visually accessible. These efforts 
culminated in the development of closed captioning, achieved by 
inserting captions--in the form of an electronic code--into line 21 of 
the 525 lines making up the vertical blanking interval of analog 
television pictures. Many television network executives and producers 
liked the new ``closed'' method because it allowed captions to be 
turned on only by people who wanted to see them. As a result, it 
enabled expansion of their viewing audiences to people who could not 
hear, without potentially losing viewers who didn't want to use 
captions.
    In December 1976, after receiving significant support for the Line 
21 technology, including encouragement in the form of a letter from 
President Gerald Ford, the FCC amended its rules to authorize 
broadcasters to voluntarily use the new technology for the provision of 
closed captions. This action paved the way for ABC, NBC, and PBS to 
enter into an agreement a few years later, to provide 16 to 20 hours of 
closed captioned television programming each week. The agreement also 
called for Sears to oversee the production and sale of standalone 
television decoders, needed at the time for caption viewing. In the 
years to come, CBS also began captioning, and the U.S. Department of 
Education, which had since assumed responsibility for the Federal 
captioned film program, took on the role of distributing Federal grants 
to help provide financial support for captions on television.
    As a result of these various efforts, the 1980s witnessed 
considerable growth in the number of closed captioned television 
programs, especially during the evening hours on broadcast channels. 
However, the sale of caption decoders remained stagnant. Although 
introduced in 1980, 8 years later, only 200,000 decoders had been 
purchased. Fearing that the small viewing audience might hurt 
captioning efforts, concern began to grow that the future of captioning 
was in jeopardy. Without a sizable market, some predicted that 
television producers and advertisers would pull back on the funding 
support they had been contributing to add captions to their programs. A 
``Catch-22'' ensued: producers grew increasingly reluctant to invest 
money into captioning new television shows until they witnessed a 
growth in decoder sales, while consumers remained hesitant to spend 
hundreds of dollars on decoder equipment until more television programs 
became captioned.
    This was not the first time, nor would it be the last, that people 
with disabilities would not be able to exercise sufficient market 
strength to achieve access to a new communications technology. Although 
the number of people with disabilities in the United States is said to 
hover around 50 million, each individual disability group--i.e., 
individuals who are deaf, blind, mobility disabled, etc.--typically has 
not been large or strong enough to exert the market pressures needed to 
incentivize industry to include accessibility features in their 
products and services. Often lower incomes that are common within the 
disability community and the need for expensive and hard-to-find 
adaptive equipment have exacerbated the problem--that is, without the 
expendable income to buy new-to-the-market products or the physical 
ability to use them without assistive devices, people with disabilities 
often have not been able to exert the necessary influence to convince 
companies to incorporate accessible features. Often, when market forces 
have failed in the past, the government has stepped in with regulatory 
measures to ensure that people with disabilities have the access that 
they need. It had been for this reason that the Department of Education 
had been providing assistance in the form of captioning grants. 
However, because these funds only covered a portion of total captioning 
costs, the lack of market incentives for the television industry to 
continue contributing its share signaled the possible need for 
additional Federal action.
    In order to determine next steps, in 1989, the Department of 
Education conducted an assessment of the benefits of its continued 
investments into captioning services. The survey confirmed that deaf 
viewers and parents of deaf children strongly supported captioning as a 
critical means of acquiring information that was essential to full 
participation in American society. But it also revealed that many, if 
not most, Americans who were deaf or hard of hearing remained unaware 
of the availability of decoders, including where to buy them (at the 
time, there were few closed captioned advertisements on TV and the 
Internet did not yet exist). In addition, it confirmed that, at 
approximately $200 per device, consumers considered the decoders too 
expensive for the limited programming choices available, and many found 
this equipment too complicated to connect to their television sets. 
When it became clear that a better means of providing consumers with 
easy access to closed captions would be necessary to sustain the 
service, Congress responded with bipartisan legislation, the Television 
Decoder Circuitry Act of 1990, which directed that all television sets 
manufactured or imported into America with screens 13 inches or larger 
had to be capable of decoding and displaying closed captions as of July 
1993. The goal of this ``Decoder Chip'' bill was to encourage 
programmers and producers to include closed captions on more of their 
television programs in order to benefit from the expanded audience. As 
chief sponsor of the legislation, Senator Harkin, in his opening 
remarks, affirmed the bill's importance, noting that television was a 
pervasive means of sharing information in our society, and therefore a 
vital link to our world. In 1991, the FCC implemented the new law in a 
timely fashion, with the adoption of performance and display 
specifications that defined the color, placement, size, font, and 
intelligibility of the line 21 captions.
    Prior to passage of the Decoder Chip bill, some in the electronics 
industry had resisted the law's provisions. However, shortly after the 
legislation was enacted, industry quickly came on board with an 
enthusiastic response by several companies that recognized the 
potential for a new market of individuals who might buy their 
television devices. By November 1991, scarcely a year after the 
legislation was adopted and well before the implementation deadline, 
Zenith demonstrated its eagerness to get a jump on these new purchasers 
with the release of five decoder-equipped TV models. And as the 
deadline of July 1993 neared, the Electronics Industry Association 
(EIA) launched a nationwide campaign called ``CaptionVision'' at 
electronic trade shows, stores, and in mainstream publications, which 
suggested to the public that closed captioning could benefit far more 
than the community for which these services were originally designed, 
and revealed the industry's intent to tap huge new markets of 
television viewers who wanted to be able to ``read'' television. EIA's 
marketing efforts were in full swing at a kick-off event for the new 
legislation held at Gallaudet University on July 1, 1993, at which 
large screen televisions blared the music of Michael Jackson and Paula 
Abdul, accompanied by captions that beat to the timing of their music. 
Against this backdrop were eye-catching posters that demonstrated the 
expanded benefits of closed captioning: One had a magician pointing to 
magic words announcing ``Your Kid's New Reading Tutor,'' another touted 
the ability to learn English quickly ``in the privacy and comfort of 
[your] homes.'' Yet another targeted sports enthusiasts who wanted to 
follow every play, even ``when noisy relatives, including loud Uncle 
Leo show up for dinner during the big game.'' Another EIA poster, 
proclaiming that ``CaptionVision is for Everyone!'' was correct in its 
prediction; in the years that followed, this accessibility feature, 
originally intended for people with hearing loss, became ubiquitous in 
bars, gyms, and other noisy public places. This was just one of many 
times that a technology or feature created to provide accessibility for 
the disability community, proved to be beneficial to the public at 
large.
    Although some increase in the number of closed captioned programs 
did occur on broadcast television by the time the Decoder Act became 
effective in 1993, the percentage of basic cable television shows with 
captions still hovered around only 5 to 10 percent. As it became 
increasingly clear that the promises of larger audiences would not be 
sufficient to motivate these programmers to caption their shows, 
Congress again stepped in, this time with mandates for television 
programs to be shown with captions. Specifically, the 1996 amendments 
to the Communications Act directed the FCC to adopt rules requiring new 
television programming to be fully accessible through the provision of 
closed captioning and to maximize the accessibility of older television 
programming. In response, the Commission adopted comprehensive mandates 
that set forth a schedule of deadlines for the provision of closed 
captioning on English and Spanish language television programs. In 
addition, the Commission adopted new rules in 2000 to ensure that 
digital television receivers would be capable of displaying closed 
captions. Those rules created specifications that took advantage of new 
digital technologies to allow users to tailor captions to their 
individual needs, by controlling the font, size, color, opacity, and 
other captioning features.
    As a result of the FCC's rules, since January 2006, all new, non-
exempt English language programming, defined as analog programming 
first published or exhibited on or after January 1, 1998, and digital 
programming first aired on or after July 1, 2002, have been captioned. 
In addition, since January 1, 2008, 75 percent of English language 
``pre-rule'' programming, which was first shown before January 1, 1998, 
and digital programming first shown before July 1, 2002, have been 
subject to the captioning requirements. Spanish language programming 
was given a longer period for compliance--January 1, 2010 for all new, 
non-exempt programming and 75 percent of pre-rule programming by 
January 1, 2012. The Commission's rules exempt certain categories of 
programming from these requirements, including overnight programming, 
local non-news programs without repeat value, non-vocal music, programs 
on new networks, and advertisements under 5 minutes. In addition, 
channels producing annual revenues under $3 million need not spend any 
funds to caption their programs (although they still have an obligation 
to pass through video programming already captioned), and no video 
programming provider need spend more than 2 percent of its prior year's 
gross revenues on captioning expenses. Finally, individual exemptions 
may be granted upon a showing that the provision of closed captioning 
is economically burdensome to a covered entity.
    In 2000, the Commission also adopted rules specifically governing 
access by people with hearing and vision disabilities to televised 
information about emergencies, where such information is intended to 
further the protection of life, health, safety, and property. In these 
rules, the Commission established, without exception, requirements for 
all programming distributors to provide access to critical details 
about emergencies that are provided during newscasts, whether regularly 
scheduled or those that interrupt programming. Time after time, 
Americans have been witness to the importance of having such 
information--whether during bouts of extreme weather, such as tornadoes 
in the mid-west and the recent hurricanes in the northeast--or during 
severe public disturbances, including the events of September 11, 2001 
and the more recent Boston bombings. One can hardly imagine not having 
instantaneous access to information during such events--information 
that is needed to instruct viewers on taking necessary precautions. 
Most recently, as noted below, the Commission expanded its emergency 
information access rules even further, to require audio access to 
emergency information provided visually during non-newscast 
programming--e.g., provided through on-screen crawls.
    twenty-first century communications and video accessibility act
    While the above regulatory measures made significant strides in 
providing people with disabilities with the information tools needed to 
achieve full access to video programming during the 1990s, more 
recently it became clear that these laws were not keeping up with 
evolving digital and Internet technologies. As with earlier 
technological advances, these new innovations promised enormous 
opportunity for the American public, but threatened to create new 
barriers that could leave people with disabilities behind if they did 
not include accessibility features. To prevent this from occurring, and 
with the recognition that the competitive marketplace was not likely to 
protect such access, in 2010, Congress stepped in with the passage of 
the Twenty-First Century Communications and Video Accessibility Act 
(CVAA) to address the accessibility challenges of these emerging 
technologies. The new law lays out a series of directives for the 
Commission to ensure the inclusion of accessibility features during the 
design and development of these new innovations, so that costly and 
burdensome retrofits are not needed later on. The remainder of this 
testimony provides a summary of the FCC's implementation of these new 
CVAA requirements.
Captioning of Internet Programming
    On January 12, 2012, the FCC adopted rules setting forth a schedule 
of deadlines that require closed captioned programs shown on television 
to be captioned when shown on the Internet. The following deadlines, 
adopted by the Commission, apply to video programming that is newly 
added to the distributor's inventory of Internet video programming:

    <bullet> September 30, 2012: Prerecorded programming that is not 
``edited for Internet distribution'' must be captioned when delivered 
via Internet protocol if it has been shown on TV with captions since 
September 30, 2012. This applies to television programming that has not 
been substantially edited before being posted to the Internet. Examples 
of substantial edits include deleting scenes or altering musical 
scores.
    <bullet> March 30, 2013: Live and near-live programming must be 
captioned when delivered via Internet protocol if it has been shown on 
television with captions since March 30, 2013. Near-live programming is 
defined as video programming that is performed and recorded less than 
24 hours before being shown on television for the first time.
    <bullet> September 30, 2013: Prerecorded programming that is 
substantially edited for Internet distribution must be captioned if it 
is shown on TV with captions on or after September 30, 2013.

    Extended deadlines apply to captioned television programming that 
is already in the video programming distributor's or provider's 
inventory before it is shown on television with captions. The 
compliance timeline for these distributors requires closed captions on 
such programming as follows:

    <bullet> Within 45 days after the date it is shown on TV with 
captions on or after March 30, 2014 and before March 30, 2015;
    <bullet> Within 30 days after the date it is shown on TV with 
captions on or after March 30, 2015 and before March 30, 2016; and
    <bullet> Within 15 days after the date it is shown on TV with 
captions on or after March 30, 2016.
Display of Captioning on Equipment Used to View Video Programming
    On January 12, 2012, the Commission adopted rules implementing the 
CVAA's requirements to expand the types of video apparatus that are 
required to display closed captions. These rules expand the Decoder 
Chip Act's mandate for captioning capability (which had only required 
captions to be displayed on equipment that receives or plays back video 
programming using a picture screen of 13 inches or larger) to equipment 
with screens smaller than 13 inches, if doing so is technically 
feasible and achievable with reasonable effort or expense. In addition, 
if achievable with reasonable effort or expense, equipment that records 
video programming must either enable the display of closed captions or 
pass through closed captions to the equipment used to view the 
programming. Viewers must also be able to turn on and off the closed 
captions as the video programming is played. The equipment rules are 
applicable to both physical devices designed to receive and play back 
video programming, including smartphones, tablets, personal computers, 
and television set-top boxes, as well as software integrated into 
devices that was installed by the manufacturer before the equipment is 
sold or that the manufacturer requires the consumer to install after 
the equipment is purchased. The rules further require covered devices 
to enable consumers to take advantage of the display specifications 
first adopted in the Commission's digital receiver regulations, namely 
the ability to adjust the color, size, fonts, opacity, and other 
caption display features. Finally, the rules require interconnection 
mechanisms (for example, cables) that carry information from a source 
device to consumer equipment (for example, a television set) to be 
capable of conveying the information necessary to permit or render the 
display of captions to viewers. Equipment manufacturers must comply 
with these new rules by January 1, 2014.
Video Description
    In 2000, the FCC issued video description rules that followed up on 
a study and report authorized by the 1996 amendments to the 
Communications Act. In 2002, although a Federal court overturned these 
rules for lack of authority, some video programming providers, 
including CBS, PBS, TNT, and Fox continued to provide video description 
voluntarily. In October 2010, the CVAA authorized the Commission to 
restore the original video description rules, which the Commission put 
back into effect on July 1, 2012.
    The restored video description rules require local TV station 
affiliates of ABC, CBS, Fox, and NBC located in the top 25 television 
markets to provide 50 hours per calendar quarter--approximately 4 hours 
per week--of video-described prime time and/or children's programming 
(programming directed to children 16 years or younger). Any programming 
aired with description must always include description if re-aired on 
the same station or MVPD channel. The rules also apply to the 
multichannel video programming distributor systems with more than 
50,000 subscribers, with respect to the top 5 non-broadcast networks, 
presently: Disney Channel, Nickelodeon, TBS, TNT, and USA. The list of 
covered non-broadcast networks will automatically update every 3 years, 
based on Nielson ratings for the prior year. Individual exemptions from 
the video description requirements may be granted upon a showing that 
the provision of video description is economically burdensome to the 
covered entity. The compliance date for mobile DTV broadcasts is 
delayed until October 8, 2013.
    The video description requirements will be extended to local TV 
station affiliates of the covered national networks that are located in 
the top 60 television markets beginning July 1, 2015. Per the CVAA's 
directive, during the summer of 2013, the Commission will begin 
conducting an inquiry, and thereafter reporting to Congress on (1) the 
availability, use, and benefits of video description and (2) the 
technical and operational issues, costs, and benefits of providing 
video description for video programming delivered using Internet 
protocol. Based on the results of this report, the Commission may 
increase the total hour requirement for described programs by 75 
percent, up to 7 hours per week. A subsequent report by the Commission 
is due to Congress 9 years after the CVAA's enactment, on the types and 
amount of video described programming available, the costs, benefits, 
and uses of such programming, and the need for additional described 
programming in designated market areas outside the top 60 markets. In 
2020, the Commission will have additional authority, based on the 
findings, conclusions, and recommendations contained in this report, to 
phase in the video description regulations for up to an additional 10 
designated market areas each year, so long as the costs of implementing 
the regulations are reasonable for program owners, providers, and 
distributors in these additional markets.
Televised Accessible Emergency Information
    As discussed above, since 2000, the Commission has had in place 
rules to require televised emergency information to be visually 
accessible to people with hearing disabilities. Those rules also have 
required aural access for people with vision disabilities to emergency 
information provided on newscasts, both regularly scheduled or those 
that interrupt regular programming. On April 8, 2013, pursuant to the 
CVAA, the Commission adopted new emergency information requirements for 
broadcasters, MVPDs, and any other distributor of video programming 
that delivers programming directly to the home, to provide an aural 
presentation of emergency information that is provided visually in non-
newscast programming (i.e., typically through crawls that appear at the 
bottom of the screen during regularly scheduled programming) on a 
secondary audio stream. The rules further require that covered entities 
use an aural tone to precede the emergency information on both the main 
program audio and the secondary audio stream, and that such emergency 
information must supersede all other programming on that secondary 
stream. The rules will require compliance 2 years from the date of 
publication in the Federal Register.
Other Video Apparatus Requirements
    On April 8, 2013, the Commission adopted rules requiring apparatus 
designed to receive, play back, or record video programming transmitted 
simultaneously with sound to support secondary audio streams, so that 
these streams can be used to provide video description and accessible 
emergency information to people who are blind and visually impaired. 
The new requirements, which apply as well to removable media players 
and mobile digital television apparatus, allow the use of text-to-
speech technologies and require compliance 2 years from the date of 
Federal Register publication of the rules.
    In addition, by October 2013, the Commission is directed to adopt 
rules requiring that user interfaces on digital apparatus and 
navigation devices used to view video programming be accessible to and 
usable by individuals who are blind or visually impaired. Among other 
things, this will require access to on-screen text menus and other 
visual indicators. Finally, the CVAA requires the promulgation of rules 
requiring that these devices provide easy activation of accessibility 
features that is ``reasonably comparable to a button, key, or icon.'' 
The Commission is presently working on the rulemaking that will address 
these issues.
Requirements for Mobile Phone Internet Browsers
    On April, 26, 2013, the Commission adopted rules implementing a 
CVAA requirement for mobile phone manufacturers and mobile service 
providers that include or arrange for the inclusion of an Internet 
browser on their mobile phones to ensure that the functions of the 
included browser are accessible to and usable by people who are blind 
and visually impaired, unless doing so is not achievable. These rules 
will ensure that people in these communities are able to use such 
browsers for any purpose, including accessing video programming.
                               conclusion
    Over the past few decades, Congress has adopted numerous directives 
to ensure that people with disabilities have access to emerging video 
programming technologies. The FCC has taken seriously its 
responsibility to ensure that these directives are timely and 
effectively implemented, beginning with the adoption of specifications 
for captioning decoders in TV sets in the early 1990s, to our more 
recent implementation of the CVAA's comprehensive provisions requiring 
access to video programming by both people with vision and hearing 
disabilities. We are proud to note that we have met every one of the 
CVAA's tight rulemaking deadlines, as reflected in the Biennial Report 
to Congress submitted on October 5, 2012. See http://www.fcc.gov/
document/cvaa-report-congress.
    The Federal policy reflected in these many proceedings acknowledges 
that video programming can serve as a tool of learning, independence, 
and social integration. Tomorrow's video technologies are likely to 
continue to hold tremendous promise in terms of increased productivity, 
self-sufficiency, and empowerment for people with disabilities. Our 
challenge both now and into the future will be to make sure that our 
accessibility policies keep up with these emerging technologies. 
Incorporating access early on, during the design and development of 
products and services, ensures that people with disabilities are not 
left behind, and avoids the need to retrofit these offerings later on, 
which can be expensive and burdensome, and often not as effective. To 
achieve our goals, we will continue to seek out the assistance and 
collaboration of industry and consumer experts and stakeholders. Over 
time, we have seen increased consensus on mutually agreeable solutions 
among these interested parties, as reflected in various consumer-
industry forums and advisory bodies that have helped us craft our video 
accessibility rules in recent years. We will continue working with 
stakeholders as technologies continue to evolve, to enhance our 
understanding of the needs of consumers and the way that these needs 
can best be addressed by innovative and competitive industries.

    The Chairman. Thank you very much, Ms. Strauss, for that 
testimony, and thanks for the little history lesson there too.
    Now, we turn to Eve Hill. Welcome back again. You have been 
here before, welcome back, Ms. Hill, and please proceed.

  STATEMENT OF EVE L. HILL, SENIOR COUNSELOR TO THE ASSISTANT 
ATTORNEY GENERAL FOR CIVIL RIGHTS, U.S. DEPARTMENT OF JUSTICE, 
             CIVIL RIGHTS DIVISION, WASHINGTON, DC

    Ms. Hill. Thank you, Chairman Harkin, Ranking Member 
Alexander, and members of the committee.
    It is really an honor to be here today to talk to you about 
accessibility of entertainment technologies.
    As you know, the Civil Rights Division of the Justice 
Department enforces the Americans with Disabilities Act, and 
the ADA prohibits discrimination on the basis of disability in 
many areas of civic and social life including entertainment.
    As digital technology continues to advance, so too must our 
efforts to ensure that individuals with disabilities are not 
marginalized in the digital world. Emerging technologies have 
the potential to open doors for people with disabilities and 
can provide them the means to achieve the goal of full, equal, 
and truly integrated access to American life. But technological 
advances have the potential, also, to leave people with 
disabilities behind if those technologies are not made 
accessible. For us, these are not just barriers, they are civil 
rights issues.
    Although Congress in 1990 did not foresee the myriad, 
rapidly developing technologies that are being used today to 
deliver entertainment, Congress clearly intended for the ADA to 
apply to those technologies. As the House Committee on 
Education and Labor stated at the time,

          ``The types of accommodation and services provided to 
        individuals with disabilities should keep pace with the 
        rapidly changing technology of the times.''

    The Internet plays a critical role in many aspects of the 
daily lives of Americans. Increasingly, Government entities and 
public accommodations, including entertainment providers, are 
providing their goods and services through Web sites. But Web 
sites are not always designed to be compatible with the 
assistive technologies that people with disabilities use to 
access them.
    The Department has long taken the position in litigation 
and settlements that Web sites with public accommodations 
including entertainment providers that operate solely on the 
Internet are covered by the ADA and are required to be 
accessible.
    Just recently, the Department filed statements of interest 
in National Association of the Deaf v. Netflix in which the 
plaintiffs alleged that Netflix failed to caption the videos on 
its streaming online videos. And the court agreed that Netflix 
is a place of public accommodation, and soon after, the case 
settled. Netflix has now announced that it will make all its 
online videos accessible by 2014.
    This year, the Department anticipates publishing notices of 
proposed rulemaking to ensure that the ADA's requirements for 
equal access to the Web sites of covered entities are 
fulfilled.
    Now, going to the movies is an important social and 
cultural experience. Movies are a major source of entertainment 
in the United States. Movie theaters draw more people than all 
theme parks and major U.S. sporting events combined. According 
to the Supreme Court, movies are a significant medium for the 
communication of ideas, and may affect public attitudes and 
behavior in a variety of ways. Just as importantly, movies form 
the basis of our water cooler talk and lunchtime conversations.
    But millions of people with sensory disabilities have been 
left out of this shared cultural experience. The ADA prohibits 
discrimination by movie theaters. They must provide auxiliary 
aids and services when needed to ensure that people with 
disabilities can enjoy their movies unless it would result in 
an undue burden or fundamental alternation.
    Technology, such as closed movie captioning and audio 
description, are available to make movies accessible. In fact 
in recent years, as the movie industry has moved from analog to 
digital formats, more movies are being provided and made with 
closed movie captioning and audio description. In addition, 
more movie theaters have added the capacity to show captioned 
and audio-described movies. And as Senator Alexander noted, 
Regal has announced that it will provide captioning and audio 
description at 6,000 screens, and we applaud these efforts.
    However, not every movie theater company is equipping its 
movie screens with captioning and audio description. Whether a 
person with a sensory disability can go to the movies depends 
on where she lives. And even when theaters have accessible 
technologies, many limit the showings of accessible movies to 
particular times of the day or week.
    In July 2010, the Department issued an advanced notice of 
proposed rulemaking on potential regulatory changes to specify 
the requirements for accessible movies, and the Department is 
now preparing for the next stage in those rulemaking efforts.
    The Department has also been focused on ensuring 
accessibility to a critically important part of entertainment 
and education: reading. Electronic books hold great potential 
to place people with disabilities on equal footing with others 
when it comes to reading, but that goal will only occur if e-
book readers have text-to-speech capabilities and if electronic 
texts are properly coded.
    To that end, the Department of Justice has reached 
settlement agreements with several colleges and a public 
library to ensure they do not exclude people with disabilities 
by using inaccessible 
e-book readers.
    Technology is not only a way to see an event online or in a 
movie theater, but it is also the gateway to live events very 
often. In the past, many private venues and ticket sellers have 
not provided people with disabilities an equal opportunity to 
purchase tickets to accessible seating.
    As of March 15, 2011 revised ADA regulations now require 
venues to sell tickets for accessible seats in the same manner 
and under the same conditions as ticket sales for non-
accessible seats including online and over the phone.
    Thank you very much for the opportunity to highlight the 
Department of Justice's work in this really important area. We 
will continue to use all the tools the Justice Department has 
to realize the goal of the ADA and to ensure people with 
disabilities have full and equal access to entertainment 
technology.
    [The prepared statement of Ms. Hill follows:]
                   Prepared Statement of Eve L. Hill
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, it is an honor to appear before you today to discuss the 
accessibility of entertainment technologies. The Civil Rights Division 
enforces the Americans with Disabilities Act of 1990 (``ADA''). The ADA 
is a comprehensive, broad-reaching Federal law that prohibits 
discrimination on the basis of disability in many areas of civic and 
social life--including entertainment. As technology continues to 
rapidly advance in the digital age, so too must our efforts to ensure 
that individuals with disabilities are not marginalized in the digital 
world.
    During prior testimony before this committee, I noted the critical 
juncture that people with disabilities are facing in this country. The 
pace of technological change is remarkable; each day brings a new 
reminder of how fast technology is developing and how quickly old 
technology becomes obsolete. Emerging technologies have the potential 
to open doors for many people with disabilities, and can provide them 
the means to move closer to the goal of full, equal, and truly 
integrated access to American life. But cutting-edge technological 
advances also have the potential to leave people with disabilities 
behind if the entities that develop, manufacture, and offer that 
technology do not make their products and services accessible.
    This is especially true in the context of entertainment, where so 
much of the industry relies on technology to develop and distribute its 
products and services. If movies that are streamed through the Internet 
are not captioned, people who are deaf are shut out. If electronic 
books cannot be read by screen readers, people who are blind are shut 
out.\1\ If kiosks selling tickets to sporting events are not built with 
the proper features, people with a variety of disabilities are shut 
out. These aren't just barriers; these are civil rights issues.
---------------------------------------------------------------------------
    \1\ Many individuals with vision disabilities use an assistive 
technology known as a screen reader that can convert visually delivered 
content on the Internet into an audio form; however, the visually 
delivered content must be properly formatted and structured for the 
screen reader to work effectively. For instance, a screen reader or 
similar assistive technology cannot ``read'' an image. Thus, when 
images appear on Web sites there is no way for an individual who is 
blind or who has low vision to know what is being depicted unless the 
Web site operator provides additional information describing what is 
depicted in the image for screen readers to read.
---------------------------------------------------------------------------
    A bi-partisan majority in Congress passed the ADA, 42 U.S.C.  
12101, et seq., in 1990, and President George H.W. Bush signed this 
landmark civil rights legislation into law. The statute mandates the 
elimination of discrimination on the basis of disability in all areas 
of American civic and economic life. The Department of Justice is 
responsible for enforcing and implementing Titles II and III of the 
ADA, which cover State and local government entities and private 
businesses, respectively. We also enforce Title I of the ADA against 
State and local government employers that discriminate on the basis of 
disability.
    Although Congress, in 1990, could not have foreseen the rapidly 
developing technology used by entities to deliver entertainment, 
Congress clearly intended for the ADA to apply to these technologies. 
When considering the bill that ultimately became the ADA, the House 
Committee on Education and Labor stated:

        ``that the types of accommodation and services provided to 
        individuals with disabilities, under all of the titles of this 
        bill, should keep pace with the rapidly changing technology of 
        the times.'' \2\
---------------------------------------------------------------------------
    \2\ H.R. Rep. No. 101-485, pt. 2, 101st Congress 2d Sess. 108 
(1990).

    This position has been echoed by the Justice Department through the 
regulations the Department has promulgated under the ADA and the cases 
the Department has filed to enforce the ADA. My testimony will address 
the work that the Justice Department is doing and has done through its 
rulemaking authority and its enforcement of the ADA to ensure that 
entertainment technologies are, and remain, accessible for people with 
disabilities.
                       i. web site accessibility
    When the ADA was enacted in 1990, the Internet as we know it today 
did not exist. Today the Internet plays a critical role in the daily 
personal, professional, civic, and business life of Americans. 
Increasingly, government entities and public accommodations are 
providing goods and services to the public through Web sites.
    Being unable to access Web sites puts individuals at a great 
disadvantage in today's society, which is driven by a dynamic 
electronic marketplace and unprecedented access to information. On the 
economic front, electronic commerce, or ``e-commerce,'' often offers 
consumers a wider selection and lower prices than traditional, ``brick-
and-mortar'' storefronts, with the added convenience of not having to 
leave one's home to obtain goods and services. For individuals with 
disabilities who experience barriers to their ability to travel or to 
leave their homes, the Internet may be their only way to access certain 
goods and services.
    On the social front, the Internet has become a fast, easy, and 
cost-effective way for many people to access entertainment. Taking 
advantage of the Internet's instantaneous commerce, entertainment 
providers distribute movies, television shows, books, music, and other 
content through Web sites. The Internet has literally transformed the 
way that entertainment distributers do business and how Americans 
access entertainment.
    Millions of people have disabilities that affect their use of the 
web--including people with visual, auditory, physical, speech, 
cognitive, intellectual and developmental and neurological 
disabilities. People who have difficulty using a computer mouse because 
of mobility impairments, for example, may use assistive technology that 
allows them to control software with verbal commands. People who are 
deaf may rely on captioning to make streaming content accessible. 
People who are blind may use screen readers to convert visually 
delivered content on the Internet into an audio form. But Web sites are 
not always compatible with those assistive technologies and 
technological adaptations do not always provide what is necessary for 
people with disabilities to access them.
    The Department has long taken the position that Web sites of 
private entities that are public accommodations,\3\ including 
entertainment providers that operate solely on the Internet, are 
covered by the ADA and are required to be accessible. The Department 
has reached settlements with a number of entities to bring their Web 
sites into compliance with the ADA, including Web sites serving the 
entertainment industry.
---------------------------------------------------------------------------
    \3\ Under title III, a public accommodation is a private entity 
that owns, leases, leases to, or operates a place of public 
accommodation. A place of public accommodation is defined as a facility 
whose operations affect commerce and falls within 1 of 12 enumerated 
categories, including places of lodging, establishments serving food or 
drink, places of exhibition or entertainment, sales or rental 
establishments, and service establishments.
---------------------------------------------------------------------------
    In September 2011, the Department entered into a settlement 
agreement with Freemantle Productions, Inc., and CBS Broadcasting, 
Inc., regarding the television show, The Price is Right. Among other 
things, the settlement requires The Price is Right to modify its Web 
sites to ensure that people with disabilities can access information 
about the television show and how to obtain tickets.
    Similarly, in December 2012, the Justice Department entered into a 
settlement with the Cavaliers Operating Company, LLC, concerning 
Quicken Loans Arena. Under the settlement, the Cavaliers Operating 
Company is required to ensure that its Web site is accessible for 
people with disabilities. Because of the settlement, patrons with 
disabilities will be able to find seating and purchase tickets for 
sporting events and concerts online.\4\
---------------------------------------------------------------------------
    \4\ The World Wide Web Consortium, or the W3C, the main 
international standards organization for the World Wide Web, has 
developed accessibility standards--such as the Web Content 
Accessibility Guidelines 2.0--that have become the standard in the 
technological industry for making Web sites and content accessible. The 
W3C continues to build upon these important initiatives, including 
information to help mobile application developers build accessible 
products.
---------------------------------------------------------------------------
    Because video programming over the Internet is fast becoming the 
dominant means of delivering movies, television shows, and other 
entertainment offerings to the American public, the Department has 
taken steps to ensure that video programming Web sites are also 
accessible. In October 2011, the Justice Department filed a Statement 
of Interest in National Association of the Deaf, et al., v. Netflix, 
Inc. (D. Mass.), a case in which the plaintiffs alleged that Netflix 
failed to provide captions for many of its ``Watch Instantly'' 
Internet-based streamed movies, in violation of Title III of the ADA. 
In its brief, the Justice Department argued that Title III of the ADA 
applies to Netflix's ``Watch Instantly'' videos and that the court had 
subject-matter jurisdiction over the plaintiffs' claims.
    In May 2012, the Department filed a second Statement of Interest in 
the case. The Department again argued that Netflix is a public 
accommodation under title III, even if it has no physical structure 
where customers access its services. The court agreed with the 
Department's position and soon thereafter the case settled, with 
Netflix announcing that it will make 100 percent of its online 
streaming videos accessible by 2014.
    In addition, the Department is engaged in rulemaking to ensure the 
ADA's requirements for equal access to the programs, services, goods 
and activities of title II and title III entities are fulfilled. The 
Department has issued an Advance Notice of Proposed Rulemaking 
(``ANPRM'') on the accessibility of information and services on the 
web, and has solicited public comment on this issue. The public comment 
period closed on January 24, 2011; the Department received 
approximately 440 public comments and is currently reviewing them. The 
Department anticipates publishing separate Notices of Proposed Rule 
Making addressing Web site accessibility pursuant to Titles II and III 
of the ADA in calendar year 2013.

               II. Movie Captioning and Video Description

    The Justice Department has also been working on issues involving 
the accessibility of movies shown in theaters to people with 
disabilities. Going to the movies is a quintessential American 
experience. In any given month, over 56 million adults (roughly 26 
percent of the adult population) make a trip to a movie theater to take 
in a movie. Experian Marketing Services, 2010 American Movie-Goer 
Consumer Report, available at http://www.experian.com/blogs/marketing-
forward/2010/02/20/2010-american-movie-goer-consumer-report/ (last 
visited Apr. 2, 2013). Going to the movies is also an important social 
experience, especially for teenagers and young adults. And while 
teenagers and young adults are more likely to go to the movies than 
older adults, adults over 50 outnumber young adults when it comes to 
raw number of moviegoers. Id. Moreover, going to the movies is also an 
important part of the American family experience. Long holiday weekends 
offer the movie industry some of the biggest box offices sales as 
families gather for the holidays and head out to the theaters together.
    Despite the recent economic downturn, movies continue to be a major 
source of entertainment in the United States. In 2012, moviegoers in 
the United States and Canada bought a record $10.8 billion in movie 
tickets, with the largest number of tickets (1.36 billion) sold in 3 
years. Theatrical Market Statistics, Motional Picture Ass'n of Am. 4 
(2012), available at http://www.mpaa.org/Resources/3037b7a4-58a2-4109-
8012-58fca3abdf1b.pdf, (last visited May 9, 2013). Movie theaters 
continue to draw more people than all theme parks and major U.S. 
sporting events combined. Id. at 10.
    Movies are a part of our shared cultural experience, ``water 
cooler'' talk, and the subject of lunch-time conversations. The Supreme 
Court observed over 60 years ago that motion pictures ``are a 
significant medium for the communication of ideas'' and ``may affect 
public attitudes and behavior in a variety of ways, ranging from direct 
espousal of a political or social doctrine to subtle shaping of thought 
which characterizes all artistic expression. The importance of motion 
pictures as an organ of public opinion is not lessened by the fact that 
they are designed to entertain as well as to inform.'' Joseph Burstyn, 
Inc. v. Wilson, 343 U.S. 495, 501 (1952).
    When individuals with sensory disabilities have the opportunity to 
attend movies that they can actually understand through the use of 
captions or audio description, they are exposed to new ideas and gain 
knowledge that contributes to their social development and their 
communication skills.
    According to 2010 census data, 7.6 million people experienced a 
hearing difficulty (defined as experiencing deafness or having 
difficulty hearing a normal conversation, even when wearing a hearing 
aid). Of those individuals, 1.1 million reported having a severe 
difficulty hearing. In addition, 8.1 million people reported having 
some degree of difficulty seeing (defined as experiencing blindness or 
having difficulty seeing words and letters in ordinary newsprint, even 
when normally wearing glasses or contact lenses). Of those individuals, 
2.0 million reported they were blind or unable to see. See U.S. Census 
Bureau, U.S. Dep't of Commerce, P70-131, Americans With Disabilities: 
2010 Household Economic Studies 8 (2012), available at http://
www.census.gov/prod/2012pubs/p70-131.pdf. For people aged 65 or older, 
Census data indicated that 10.8 percent had difficulty hearing (as 
defined in the census), and 9.8 percent reported having difficulty 
seeing (as defined by the Census). Id. Hearing and vision loss are 
highly correlated with aging, and as the U.S. population ages,\5\ the 
number of individuals with hearing or vision loss is projected to 
increase significantly. Research indicates that the number of Americans 
with a hearing loss has doubled during the past 30 years. See The 
Prevalence and Incidence of Hearing Loss in Adults, Am. Speech-
Language-Hearing Ass'n, available at http://www.asha.org/public/
hearing/disorders/prevalence_adults.htm (last visited Apr. 2, 2013). 
Experts predict that by 2030, severe vision loss will double along with 
the country's aging population. See Aging and Vision Loss Fact Sheet, 
Am. Found. for the Blind, available at http://www.afb.org/
section.aspx?FolderID=3&SectionID=44
&TopicID=252&DocumentID=3374 (last visited Apr. 2, 2013). This increase 
will likely lead to a corresponding increase in the number of people 
who will need captioning or audio description. It is critical that 
these individuals are not shut out of an emblematic part of our 
culture.
---------------------------------------------------------------------------
    \5\ The percentage of Americans approaching middle age and older is 
increasing. The 2010 Census found that during the decade spanning 2000 
to 2010, the percentage of adults aged 45 to 64 years increased by 31.5 
percent while the population aged 65 and over grew at a rate of 15.1 
percent. By contrast, the population of adults between 18 and 44 grew 
by only 0.6 percent. Age and Sex Composition in the United States: 2010 
Census Brief 2 (2011), U.S. Census Bureau, U.S. Dep't of Commerce, 
C2010BR-03, available at http://www.census.gov/population/age/.
---------------------------------------------------------------------------
    Title III of the ADA prohibits public accommodations, such as movie 
theaters, from discriminating against individuals with disabilities, 42 
U.S.C. 12182(a). Among other things, covered entities must take ``such 
steps as may be necessary to ensure that no individual with a 
disability is excluded, denied services, segregated or otherwise 
treated differently . .  because of the absence of auxiliary aids and 
services'' unless they can show that doing so would result in a 
fundamental alteration or undue burden. 42 U.S.C.  
12182(b)(2)(A)(iii). Auxiliary aids available to movie theaters to make 
their theaters accessible include assistive listening systems, closed 
movie captioning, and audio description. The ADA title III regulations 
specify that movie theaters must provide assistive listening systems 
and a specific number of assistive listening devices to make movies 
accessible to people with hearing loss.
    There are many different types of technology that help make movies 
accessible. Closed movie captioning displays the written text of the 
dialog and other sounds or sound making to those individuals who 
request it. When requested, the captions are delivered via individual 
captioning devices used by patrons at their seats. Audio description is 
a technology that enables individuals who are blind or have low vision 
to enjoy movies by providing a spoken narration of key visual elements 
of a movie, such as actions, settings, facial expressions, costumes, 
and scene changes. Audio description fills in information about the 
visual content of a movie where there are no corresponding audio 
elements in the film. The oral delivery of the script is transmitted to 
the user through infra-red or FM transmission to wireless headsets.
    In recent years, as part of the conversion of the movie industry 
from analog to digital formats, more movies are being made with closed 
movie captioning and audio description. Movie studios appear committed 
to making their movies accessible to individuals with sensory 
disabilities, and the Department commends their efforts. In addition, 
more movie theaters have added the capacity to show captioned and audio 
described movies. We applaud such efforts and encourage other movie 
exhibitors to follow suit. As digital cinema technology has advanced, 
the options and methods available for exhibiting movies with captioning 
and audio description have also expanded. Members of the industry, 
manufacturers, and other interested parties worked together to ensure 
interoperability of digital cinema components through standards adopted 
by the Society of Motion Picture and Television Engineers (SMPTE), so 
that products that provide captioning and audio description would be 
compatible with the various digital cinema systems available for 
purchase and use by movie theaters. For this and other reasons, in 
digital cinema systems it is much easier and far less costly to exhibit 
movies with captioning and audio description.
    However, not every movie company has announced plans to equip its 
movie screens with captioning and audio description, so the ability for 
persons who are deaf or hard of hearing or are blind or have low vision 
continues to depend upon where they live.\6\ In addition, even when 
theaters have the capability to offer captions and audio description, 
they don't do so at all screenings. Many theaters limit showings of 
movies with captions or audio description to particular times of the 
day or week.
---------------------------------------------------------------------------
    \6\ For example, persons who live in smaller cities served only by 
smaller regional movie theater chains are far less likely to have 
access to captioning and audio-described movies than individuals with 
disabilities who live in California, Arizona, or any of the major 
cities with theaters operated by Regal or Cinemark.
---------------------------------------------------------------------------
    In July 2010, the Department issued an ANPRM seeking public comment 
on potential revisions to the regulations implementing the ADA relating 
to the exhibition of movies with closed captioning and audio 
description by theater owners or operators. The ANPRM did not propose 
any specific regulatory language or provisions. Instead, the ANPRM 
solicited input from the public on various issues, including: possible 
compliance and implementation schedules; industry-wide progress on 
conversion to digital cinema; status of consensus standards for digital 
cinema; captioning and audio description equipment; and, costs and 
benefits of potential revisions to the ADA regulations. The public 
comment period on the ANPRM closed in January 2011. There was a great 
deal of public interest with over 1,100 comments received from a broad 
spectrum of stakeholders, including theater owners and operators, 
persons with disabilities, trade organizations, and advocacy groups. 
The Department is in the process of reviewing public comments received 
in response to the ANPRM and preparing for the next stage in its 
rulemaking efforts.
        iii. department of justice e-book complaint resolutions
    The Department has been keenly focused on ensuring accessibility to 
a critically important form of entertainment and education--reading. 
The emergence of electronic books holds great potential to place 
individuals with disabilities on equal footing with others when it 
comes to reading. But that goal will only occur if the e-book reader is 
equipped with text-to-speech capabilities, and if the electronic texts 
are coded with structural data and text descriptions of images. The 
Department is working to ensure that covered entities that use e-
readers to deliver information or provide an experience insist on using 
accessible equipment that will provide persons with disabilities an 
equal opportunity to participate in their programs, services or 
activities.
    The Justice Department has worked hard to ensure that electronic 
books of all kinds are accessible to people with disabilities. In 2010, 
the Department of Justice reached settlements with six colleges to 
ensure that they do not exclude students with disabilities by using 
inaccessible e-readers. Under the settlements, the colleges must ensure 
that whatever technology they deploy provides students who are blind 
the same information, the same interactions, and the same services as 
sighted students with substantially equivalent ease of use.\7\
---------------------------------------------------------------------------
    \7\ Following on the heels of the settlements, the Assistant 
Attorney General for Civil Rights at the Justice Department and the 
Assistant Secretary for Civil Rights of the Department of Education 
wrote to college presidents throughout the country emphasizing that the 
use of inaccessible emerging technologies in the classroom violates the 
ADA.
---------------------------------------------------------------------------
    Similarly, in August 2012, the Justice Department reached a 
settlement with the Sacramento Public Library, which had adopted a 
program of lending inaccessible e-book readers to its patrons. Under 
the settlement, the library is required to purchase at least 18 
accessible e-book readers to ensure that people who are blind can 
participate in and benefit from the program.
   iv. accessibility issues in electronic and information technology 
                               equipment
    Each day, it becomes increasingly more difficult to go to the 
movies, attend a sporting event, rent a movie, check out a book, or see 
a concert without successfully interacting with electronic and 
information technology (EIT) equipment. Accessible EIT equipment is 
often critical to an entity's ability to provide a person with a 
disability equal access to its goods and services. Individuals with 
disabilities must have an equal opportunity to use EIT equipment, such 
as kiosks, interactive transaction machines, point-of-sale (POS) 
devices, and automated teller machines (ATMs).
    Among the EIT equipment being used by entertainment providers are 
kiosks and POS devices, which provide a wide range of services, 
including information sharing, purchasing, ticketing, and accessing the 
Internet. Unfortunately, many of these emerging technologies have been 
developed without accessibility in mind, even though accessibility 
features like talking kiosks are available. Often, with the advent of 
touch-screen technology, customers are required to enter data using a 
flat screen while reading changing visual information and instructions. 
Persons who cannot see the flat screen must rely on other people to 
enter their information, including their personal identification 
numbers. Individuals with disabilities who engage in financial or other 
transactions should be able to do so independently and not have to 
provide third parties with private information, such as a personal 
identification number. And with the right technology, this can be 
achieved.
    The Department has addressed the accessibility of EIT equipment in 
several contexts, including in museums. In July 2010, for example, the 
Department announced a settlement with the entity that owns and 
maintains Mount Vernon Estate & Gardens in Alexandria, VA, a facility 
on the National Register of Historic Places. Among other modifications, 
Mount Vernon agreed to modify the controls of its interactive exhibits 
so that they are usable by visitors with mobility disabilities, to 
provide closed captioning for its films, and provide walk-in audio-
described devices for tours. Similarly, in June 2008, the Department 
reached a settlement with the International Spy Museum, which requires 
that all computer interactive programs be accessible to people with 
disabilities.
    The Department is also addressing these issues through its 
rulemaking authority. In its 2010 ANPRM on equipment and furniture, the 
Department focused on, among other issues, the accessibility of fixed 
and non-fixed EIT equipment. The Department received more than 400 
comments in response to its ANPRM and is currently reviewing these 
comments.
           v. technology and access to events (ticket sales)
    In the past, many private venues, ticket sellers, and distributors 
have not provided people with disabilities an equal opportunity to 
purchase tickets for wheelchair-accessible seats. Whereas the general 
public is usually able to directly and immediately purchase tickets for 
non-accessible seats through Web sites and other services, people with 
disabilities have struggled--and many times failed--to reserve 
wheelchair-accessible seating.
    As of March 15, 2011, revised regulations issued by the Justice 
Department require venues that sell tickets for assigned seats to 
implement policies to sell tickets for accessible seats in the same 
manner and under the same conditions as all other ticket sales. 
Specifically, tickets for accessible seats must be sold during the same 
hours; through the same methods of purchase (by telephone, onsite, 
through a Web site, or through third-party vendors); and during the 
same stages of sales (pre-sales, promotions, general sales, wait lists, 
or lotteries) as non-accessible seats.
                             vi. conclusion
    Thank you for the opportunity to highlight all of the work the 
Department is doing in this important area. We will continue to use all 
of the tools the Justice Department has to realize the mission of the 
ADA and to ensure that people with disabilities have full and equal 
access to entertainment technologies.

    The Chairman. Thank you, again, Ms. Hill, for your 
testimony. As I said, both of your statements will be made a 
part of the record in their entirety. We will start our 
questions here.
    Ms. Hill, let me start with you. In your written testimony, 
and a small part of your spoken testimony, you talked about the 
importance of movie-going in the American culture, and the size 
of the U.S. population that experience hearing and visual 
impairments.
    Given the large and growing size of the consumer markets 
that would benefit from both captioning and video description, 
why do you think the entertainment content producers haven't 
been more aggressive in going after these markets?
    I guess I could also ask Ms. Strauss also, from your 
vantage point, the FCC, how do you see the various industries 
that you interact with in terms of their interest in the 
sensory disability community as a market?
    Ms. Hill, that is a big market out there. I said to one of 
my friends in the entertainment industry, after that showing of 
``Lincoln'' we had over here. I said to Mr. Spielberg, ``You 
know, there are millions of Americans who don't go to movies.'' 
He wanted to know what I was talking about. I said, ``Millions 
of people like me that are hard of hearing.'' I said, ``I love 
going to the movies.'' I don't go to movies anymore; I have to 
wait until they come out on DVD and I get the subtitles. I can 
watch them then, but I would like to go to a theater like I 
used to. And there are millions of Americans that love that 
experience.
    Why haven't they been more aggressive? I mean, it would 
just seem to me that this is a huge, untapped market out there. 
Do you have any ideas on that? I am sure I will ask Mr. Fithian 
that too when he gets up here.
    Ms. Hill. I am hesitant to speak for the movie producing 
industry or the movie theater industry.
    I do think many producers have really begun to welcome this 
market. Some evidence indicates that major movie producers are 
now captioning most of their films, and rightly so, because as 
you said, older Americans, in particular, are more likely to go 
to the movies, and are more likely to have hearing and vision 
disabilities.
    And then, I think they are recognizing this increased 
market because of the development of the new technologies to 
provide closed movie captioning and audio description in ways 
that, with the transition from analog to digital technology, 
make them lower cost and very effective.
    It has brought home the fact that opening their doors to 
this market, the benefits of it substantially outweigh the 
costs.
    The Chairman. Ms. Strauss, any thoughts on this?
    Ms. Strauss. I would agree that advancing technologies, and 
especially the ability to incorporate access through software, 
has dramatically changed the landscape for accessibility, as 
compared to decades ago, when we had to rely on hardware. New 
software and the flexibility of being able to incorporate 
software more cheaply and more readily have certainly 
encouraged the industry to provide more access.
    We have noticed that implementation of the CVAA has 
occurred even faster than many of the deadlines. And that the 
collaborative efforts with consumers, between industry and 
consumers, have increased.
    But if you would not mind, I would like to tell a little 
story about something that happened in the past that you may 
remember.
    What we have noticed in the past is that very often, 
industry may be initially reluctant to regulation, naturally. 
However, once the accessibility laws are passed, we find that 
they embrace.
    As an example, in 1993, when the Television Decoder Act was 
going into effect, there was a celebration at Gallaudet 
University, a press conference. And if you recall at that 
event, the electronics industry released or actually announced 
its caption vision promotional campaign. And this campaign 
focused, not on captions for people with hearing loss, but 
rather focused on captions as a way of attracting new markets 
who wanted to read TV.
    All over the room, blaring to the beat of Paula Abdul and 
Michael Jackson were captions beating, showing on the screen, 
large screen TV's. And posters were around the room announcing, 
``Your kid's new reading tutor,'' and the ability to learn 
English quickly in the privacy and comfort of your home. And 
sports enthusiasts, who wanted to follow every play, even when 
noisy relatives including loud Uncle Leo, showed up for dinner 
right before the big game.
    And I remember looking around and thinking, ``I don't see 
anything about people with hearing loss or people who are deaf 
and hard of hearing.'' What had happened was the industry found 
the market, and we have seen this time and time again with so 
many technologies.
    I cannot really speak to the movie industry, it is not 
within our jurisdiction or expertise, but it seems that they 
will too find the market.
    The Chairman. Don't forget ``Sesame Street,'' they picked 
up on that too as English as a second language when learning 
Spanish and English for kids. They picked up on that right 
away. Well, my time has kind of run out.
    Senator Alexander, go ahead.
    Senator Alexander. Obviously captioning has come a long way 
from the silent movies.
    But for either of you, as you look ahead and think about 
the evolution of captioning as emerging technology evolves, 
what do you see for the future?
    Ms. Strauss. Actually, we see a very bright future because, 
again, software companies have far more flexibility and are not 
locked into particular technologies to be able to provide 
access.
    It seems like a day doesn't go by that a new technology is 
not created. For example, some captioning agencies now use 
speech recognition with corrective technologies. They have 
alternative ways of providing captions.
    In addition, the other major movement that we see is the 
shift to the Internet. While there is a lot of captioning on TV 
now, I think that the community is going to be looking more to 
the Internet to get more captioning as well.
    Senator Alexander. What about video description? What about 
the future of video description for individuals who are blind, 
who have low vision? What do you see looking ahead there?
    Ms. Strauss. Do you want me to take that? OK, so video 
description is more in its infancy than captioning, of course. 
The FCC's rules only require approximately 4 hours of 
programming on the major national networks, the 25 top 
affiliates of those networks, and 5 cable and satellite 
channels.
    Senator Alexander. Just exactly how does that work? 
Describe video description, the experience.
    Ms. Strauss. Video description inserts narrative into the 
natural pauses of a television or a movie program. If you are 
watching a movie, let's say, and there is a pause in the audio, 
a person who is blind or visually impaired, won't know what is 
going on.
    For example, if it is a mystery and it is near the end of 
it, and the example I sometimes like to use is a man is walking 
across, perhaps, with an axe to do some damage to somebody 
else. A blind person may not know what is going on, and so the 
video description would fill-in the gaps.
    My guess is that video description will continue to evolve 
just as captioning did, and probably as it is used more, also 
the costs will come down and the technologies will improve.
    Senator Alexander. What can you do to encourage these 
developments without stifling technological creativity? How do 
we keep the Government from having too heavy a hand here?
    Ms. Strauss. Well, one of the things that CVAA does is, it 
makes very clear that we are not to lock-in the industry into 
any particular technology.
    We have always taken the position that it is more important 
to look at the end goal and to achieve accessibility, but to 
let the industry figure out how to achieve it.
    One of the things that we have done with the implementation 
of the CVAA that has worked wonderfully is that we have 
convened advisory committees where industry and consumers have 
come together and reached mutually agreeable solutions. That 
has allowed everyone to sit around the table for months at a 
time sometimes, and work together to understand the consumer 
needs, understand the industry restraints, and let the industry 
engineers attack the problem.
    Senator Alexander. I noticed that one of you mentioned that 
something was going to take place, I think you did Ms. Hill, in 
2014. Do you take into account allowing a reasonable amount of 
time to get to where you want to go?
    One of the things I have noticed over the years in 
Government is that, I think a lot of solutions would be so much 
easier when Government requires changes in the private sector, 
to ask the private sector what a reasonable period of time 
would be. I see this in environmental rules all the time. I 
usually come down on the side of clean air, but as long as we 
are going to get where we want to go, waiting another year or 
two, so that we don't clog up the pipeline or so that it does 
not distort costs, or so that it allows reasonable business 
planning. That seems to me to be a sensible thing to do.
    Do you try to do that as you do your thinking, and Ms. 
Hill, you do your enforcement work?
    Ms. Strauss. That is a cornerstone of our policymaking. 
Every rule that we have ever developed allows for a reasonable 
amount of time for implementation.
    A very good example are the closed-captioning rules that 
set out a 12-year deadline, a 12-year schedule of benchmarks 
that needed to be met for the implementation of English and 
Spanish language programming.
    Every one of these CVAA rules that we have promulgated, 
also we have gone to the industry and we have said to them, 
``How much time do you need?'' And they have been very happy 
with the amount of time we have given them.
    Ms. Hill. And similarly at the Department of Justice, in 
our advanced notice of proposed rulemaking on movie captioning 
in particular, we asked what the implementation dates should be 
and how long folks needed to implement them, and those have 
been in place already. Those started in 2010.
    Time has passed since then, we recognize the advancements 
that have been made. And we still want to make sure that in 
order to achieve the consistent access and not stifle 
innovation, we want the requirements to be flexible enough to 
just get working solutions, not regulating a specific working 
solution, and giving people time to get them implemented. So 
people can be assured when they show up at the movies, once the 
effective date is in place, they can know this is going to be 
available for them.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    I just want to followup on the Netflix in 2014. I had 
wondered about that and why it was going to take them that 
long, because when I get Netflix, all my Netflix are captioned 
with English subtitles, and a bunch of other subtitles. I can 
pick and choose whichever one I want. It would seem to me that 
their on-demand movies are digital.
    Why couldn't they just provide that? Why do they have to 
wait until 2014? That is what I do not understand.
    Ms. Hill. Well, they are rolling it out, and not everything 
that Netflix was showing online in their watch instantly videos 
was created for television. It may not have come with the 
captioning already, and some things were created specifically 
for Netflix. I am not going to advertise specifically for 
Netflix content, but those needed to be added. There were 
different pieces. I think a substantial number of them are 
already being captioned in response to that settlement 
agreement.
    Ms. Strauss. In addition, our rules only require 75 percent 
of programming first exhibited or shown on TV before 1998 to be 
captioned. And some of the Netflix series are older than that.
    The Chairman. Oh, I see.
    Ms. Strauss. They might not have it.
    The Chairman. They have got to go back and re-caption them.
    Ms. Strauss. Right.
    The Chairman. I see.
    Ms. Strauss. Again, a wonderful example of a company that 
has stepped forward with eagerness and enthusiasm to provide 
accessibility.
    The Chairman. You are talking about this company?
    Ms. Strauss. Netflix.
    The Chairman. Netflix.
    Ms. Strauss. Yes, kudos to Netflix because they are 
stepping forward to go beyond what the regulations require.
    The Chairman. I understand, again, following up with 
Senator Alexander's question about the audio devices for blind 
and sight impaired. We do have a pretty good loop technology 
now anyway for people who are hard of hearing, so it has been 
my understanding that that technology is pretty well developed. 
All that needs to be done is for the recording of what people 
are seeing.
    Ms. Hill. Right.
    The Chairman. But we have the systems sort of in-place for 
that. Am I somewhat right?
    Ms. Hill. That is right. And all or most of the assisted 
listening devices that are already required to have in movie 
theaters, usually have a second channel, and that could be used 
for audio description.
    The Chairman. Sure. The logjam, if there is one, is just 
getting the video description.
    Ms. Hill. Right.
    The Chairman. It is not in delivering it.
    Ms. Hill. Correct.
    The Chairman. That is what I thought. A little bit more 
technology involved in terms of hearing impaired, in terms of 
reading the captions and stuff. I think we will get into that 
after a bit with some of our other panelists.
    Well, listen, again, thank you both very much, and thank 
you both for your great leadership in two areas that come 
together here both FCC and the Department of Justice.
    Thank you very much.
    Ms. Strauss. Thank you.
    Ms. Hill. Thank you.
    The Chairman. Now, we will go to our second panel.
    Starting from left to right, Mr. John Fithian, president 
and CEO of the National Association of Theatre Owners. I did 
not realize it was called ``NATO'' before.
    In his position, Mr. Fithian serves as the chief 
spokesperson for theater owners before public officials and the 
press.
    Then we will hear from Ms. Betsy Beaumon. Ms. Beaumon is 
the vice president and general manager of the Literacy Program 
at the Benetech Initiative. During her time at the Literacy 
Program, she has overseen the ongoing expansion of Bookshare, 
an online accessible library service and has over one-quarter 
million users.
    Then we go with Mr. Brian Charlson, who is the current 
chairman of the Information Access Committee of the American 
Council of the Blind. In his role as chairman, Mr. Charlson 
examines the accessibility of a myriad of technologies, 
commercial or specialized, for individuals who are blind.
    Mr. Andrew Phillips is policy counsel for the Law and 
Advocacy Center at the National Association of the Deaf. In his 
role as counsel, he is responsible for providing analysis, 
recommendations, and counsel to the NAD on policy issues 
affecting deaf and hard of hearing people across the United 
States.
    Thank you all for being here. Each of your statements will 
be made a part of the record in their entirety.
    I think I am supposed to start with Mr. Phillips and then 
work down this way. Mr. Phillips, I am going to recognize you 
first, and please proceed as you so desire.

STATEMENT OF ANDREW PHILLIPS, POLICY COUNSEL, LAW AND ADVOCACY 
  CENTER, NATIONAL ASSOCIATION OF THE DEAF, SILVER SPRING, MD

    Mr. Phillips. Good afternoon, Chairman Harkin, Ranking 
Member Alexander, and distinguished members of the committee.
    My name is Andrew Phillips. I am the policy counsel for the 
National Association of the Deaf. In this role, I am 
responsible for the NAD's work on Federal legislation and the 
rulemaking processes within various Federal agencies.
    The NAD represents over 48 million deaf and hard of hearing 
Americans. I am also a deaf person who enjoys watching movies 
and shows on television, on the Internet, and elsewhere.
    I consider myself lucky to have been born in the early 
1980s, and to have come of age after the passing of the 
Americans with Disabilities Act of 1990, as well as other 
Federal laws mandating access for people with disabilities.
    However, even to this day, I am often reminded that I am 
not completely welcome in mainstream society because I am deaf. 
For my oral testimony, I will focus on the deaf experience in 
movie theaters and on planes.
    I remember going to movies with my family when I was young. 
Even though no captions were available, my mother would sit 
next to me in the theater interpreting everything that was 
said. She very much wanted me to be able to enjoy the theater 
experience with family and friends.
    Other times, I was not as fortunate and would go to the 
movies without somebody who could interpret. I have memories of 
my uncle telling me the plots of movies before we went into a 
theater so that I could at least try to figure out what was 
going on while watching the movie. Luckily for me, I had a 
pretty good imagination and usually made up my own story.
    I actually remember re-watching some movies later on with 
captions, and being disappointed by how dull the movies turned 
out to be.
    [Laughter.]
    As I entered my teens, some theaters in my area began 
showing movies with open captions. Deaf and hard of hearing 
people would pour into these very limited showings. The open 
caption showings usually came at the end of the movie's theater 
run and during nonpeak hours, such as Sunday afternoons.
    It really bothered me that I could never see the new movie 
my brother was raving about until months later, nor could I 
take a girl to the movies on a Friday night date.
    Thanks to legal efforts and their effects over time, movie 
theaters started showing captioned movies in their run, more 
frequently, and during peak showing times. However, many 
theaters have now abandoned open captioned showings in favor of 
providing closed captioning through the use of assistive 
devices provided by the theaters.
    The devices vary. Some display captions on portable 
screens, held up by a stand that fits in the cup holder, while 
others display captions on special glasses worn during the 
movie. While these devices have been a blessing for some 
individuals, they are neither comfortable nor easily usable for 
many deaf and hard of hearing people.
    However, theaters usually determine what kind of access to 
provide without consulting deaf and hard of hearing people, and 
they only provide one option. I personally have had bad 
experiences with these assistive devices, shifting my gaze 
between the captions so close to my eyes, and the screen so far 
away, it sometimes gives me headaches.
    I, along with many in the deaf and hard of hearing 
community, miss the open caption showings and wish for the same 
easy access to movies in theaters that we can create at home. 
In digital theaters, open caption display capability is built-
in to the digital projector, thus making it possible to turn 
captions on easily at the request of a patron.
    Now, to turn to in-flight entertainment. Air travel has 
long been one of the most frustrating experiences for me as a 
deaf person. It is maybe the only place where watching an 
uncaptioned program is my only choice of entertainment.
    If I am at home and something is not captioned, I can 
change the channel. If I go to a movie and it is not captioned, 
I can leave the theater. But on airplanes, no matter what is 
offered, nothing is captioned and I have no option but to stay. 
Unlike the other passengers, I must either bring my own 
entertainment or cope with programs I cannot understand. There 
is no other place where the lack of accessibility is so blatant 
and where I feel so sharply the sting of my exclusion from the 
mainstream.
    It is especially disappointing that so many airlines 
continue to deny deaf and hard of hearing passengers access on 
behind the seat screens when many of the programs have already 
been captioned on television or in theaters.
    Further, when flying internationally on other countries' 
airlines, I often can watch movies with English subtitles. Why 
is it that I can enjoy access on other countries' airlines, but 
on American carriers, I cannot have such access?
    The technology to provide captions on these behind the seat 
screens is already available. A few United Airlines flights 
currently provide captioned live television programming. In an 
age when many smartphones support captions, there is no reason 
why airlines cannot also support captions on their devices.
    I continuously remind myself of how lucky I am to have 
grown up as a child of the ADA, as I enjoy far better access 
than deaf and hard of hearing people before me, or than those 
in many countries around the world.
    We in the United States have come far just over the course 
of my lifetime, but we have farther to go, and I hold hope for 
the future, believing that together, we can make the world 
fully accessible for people with disabilities.
    A friend of mine once told me that the disability group is 
the only minority group that anybody might join at any time. An 
accessible world benefits all of us. We never know when one of 
our family, or friends, or even we ourselves may need 
accessibility solutions.
    Thank you for the opportunity to testify before you today. 
I look forward to answering any questions and comments you may 
have.
    [The prepared statement of Mr. Phillips follows:]

                 Prepared Statement of Andrew Phillips

                                summary
    Andrew Phillips' May 14, 2013 testimony discusses access for deaf 
and hard of hearing people in four specific areas of entertainment: 
movie theaters, television, online video programming, and in-flight 
entertainment. For his oral testimony, Phillips plans to focus on movie 
theaters and in-flight entertainment.

    1. Movie Theaters: Phillips sheds light on the issue through the 
lens of his own life as a deaf person, telling how his mother 
interpreted movies at theaters for him when he was a child, but when 
there was nobody to interpret, he was completely left out. With time, 
theaters started offering more and more open captioned showings which 
he enjoyed. However, in recent years, many theaters have stopped 
offering open captioned showings and instead provide assistive 
captioning devices. Many deaf and hard of hearing people enjoy these 
devices, but some like Phillips finds them uncomfortable. He explains 
that in digital theaters, it is easy to activate captions and this 
option should be offered.
    2. Television: Phillips discusses how many shows were not captioned 
when he was younger but now the Telecommunication Act of 1996 requires 
that virtually all television content to be captioned. He mentions 
however that there are a few exceptions and calls for universal 
captioning on television. Phillips also advocates for quality standards 
for television closed captions.
    3. Online Programming: Phillips explains his experience watching 
online content and that the 21st Century Communications and 
Accessibility Act of 2010 requires full length programming first shown 
on television with captions and later online to be captioned. However, 
he highlights some weaknesses such as not covering video clips posted 
online of television programs or online programs that have never been 
shown on television.
    4. In-Flight Entertainment: Phillips discusses how there is no 
access for deaf and hard of hearing people to in-flight entertainment 
on almost all airlines, though the technology to do so is available.

    Phillips wraps up with a discussion about how captioning content 
and supporting captions on different devices is far easier and cheaper 
today than it was during the 1990s when many captioning laws were 
passed. He sees no reason why more devices and content cannot be 
captioned. Phillips expresses hope for making the world more accessible 
to people with disabilities and we never know who may need these 
accessibility solutions.
                                 ______
                                 
    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
distinguished members of the committee. My name is Andrew Phillips. I 
am the policy counsel for the National Association of the Deaf (NAD). 
In this role, I am responsible for the NAD's work on Federal 
legislation and the rulemaking processes within various Federal 
agencies. The NAD represents over 48 million deaf and hard of hearing 
Americans. I am also a deaf person who enjoys watching movies and 
shows, on television, on the Internet, and elsewhere.
    I consider myself lucky to have been born in the early 1980s and to 
have come of age after the passing of the Americans with Disabilities 
Act of 1990 (ADA) as well as other Federal laws mandating access for 
people with disabilities. However, even to this day, I am often 
reminded that I am not completely welcome in mainstream society because 
I am deaf.
                          going to the movies
    I remember going to movies with my family when I was young even 
though no captions were available. My mother would sit next to me in 
the theater interpreting everything that was said--she very much wanted 
me to be able to enjoy the theater experience with family and friends. 
Other times, I was not as fortunate, and would go to the movies without 
somebody who could interpret. I have memories of my uncle telling me 
the plots of movies before we went into a theater so that I could at 
least try to figure out what was going on while watching the movie. 
Luckily for me, I had a pretty good imagination and usually made up my 
own story. I actually remember re-watching some movies later on with 
captions and being disappointed by how dull the movies turned out to 
be.
    As I entered my teens, some theaters in my area began showing 
movies with open captions. Deaf and hard of hearing people would pour 
into these very limited showings. The open captioned showings usually 
came at the end of the movie's theater run and during non-peak hours 
such as Sunday afternoons. It really bothered me that I could never see 
the new movie my brother was raving about until months later nor could 
I take a girl to the movies on a Friday night date.
    Thanks to legal efforts and their effects over time, movie theaters 
started showing captioned movies earlier in their run, more frequently, 
and during peak showing times. However, many theaters have now 
abandoned open captioned showings in favor of providing closed 
captioning through the use of assistive devices provided by the 
theaters. The devices vary: Some display captions on portable screens 
held up by a stand that fits in the cup holder, while others display 
captions on special glasses worn during the movie. While these devices 
have been a blessing for some individuals, they are neither comfortable 
nor easily usable for many deaf and hard of hearing people. However, 
theaters usually determine what kind of access to provide without 
consulting deaf or hard of hearing people and they only provide one 
option. I personally have had bad experiences with these assistive 
devices--shifting my gaze between the captions so close to my eyes and 
the screen so far away sometimes gives me headaches. I, along with many 
in the deaf and hard of hearing community miss the open captioned 
showings and wish for the same easy access to movies in theaters that 
we can create at home. In digital theaters, open caption display 
capability is built into the digital projector, thus making it possible 
to turn captions on easily at the request of a patron.
    My friends who live in rural areas tell me that it's much harder to 
find accessible showings there, as the large theater chains, which are 
the most likely to provide access, rarely service their area.
                          watching television
    Thanks to the phase-in requirements of the Telecommunications Act 
of 1996, virtually all television content is closed captioned. However, 
this was not the case for me growing up. I can clearly remember my 
mother sitting next to the television, interpreting the O.J. Simpson 
freeway chase and news reports about the Gulf War where a member of our 
family was serving in the U.S. military. With recent laws, I have been 
able to watch nearly anything on television. However, the 1996 
captioning rules carry exemptions that continue to limit access. Deaf 
and hard of hearing organizations have been advocating for the end to 
many of these outdated exemptions, calling for universal captioning of 
televised content. For instance, late night programming distributed 
between 2 a.m. until 6 a.m. is exempted as well as advertisements of 
more than 5 minutes, and some live news programming in areas that are 
not part of the top 25 media markets.
    Additionally, television captioning often contains errors such as 
typos, timing delays, or missing words that render the message 
incomprehensible. We have little recourse to determine the intended 
statement. I'm sure you can imagine the confusion created when the 
caption reads ``Iran'' instead of Iraq, or when the captions lag so far 
behind what is being said that it's impossible to figure out who's 
speaking and in what context. The NAD and other consumer organizations 
have been calling for captioning quality standards since 2004 and 
earlier.
                      watching online programming
    In recent years, we have witnessed the massive growth of streamed 
online programming. When these shows first became available online, 
practically none were captioned. I felt transported back to the late 
1980s and early 1990s--only I was at college and no longer had my mom 
around to interpret. Many deaf and hard of hearing people contacted 
these video programming distributors and pleaded with them to caption 
their streamed content. Some added captions; but many did not.
    With the passage in 2010 of the 21st Century Communications and 
Video Accessibility Act (CVAA), full-length programming first shown on 
television with captions and later online must be captioned online as 
well. We are enjoying tremendous growth in the accessibility of online 
programs and are able to watch them on smart TVs, computers, tablets, 
smart phones, and gaming consoles. However, the FCC exempted video 
clips taken from full-length programs on television and displayed 
online. This means that many videos shown on major news Web sites are 
not captioned because they are considered clips of full-length 
programs.
    Like so many people my age, I prefer getting my news online. 
Increasingly, I run into these uncaptioned video clips which leaves me 
trying to lip-read news anchors--a difficult, if not impossible task. 
Some preliminary research that is being done by several deaf and hard 
of hearing organizations and two academic institutions has found that 
the vast majority of segmented news programming (70 percent) and news 
video clips (77 percent) shown online are not captioned, denying deaf 
and hard of hearing people access to critical news programming such as 
of the Boston marathon bombing coverage. It's ridiculous that these 
clips are not captioned on the Internet, given that almost all of them 
were captioned when shown on television. There is no reason not to 
require a showing of the same captions on the Internet.
    On top of this, we are seeing more and more online-only programming 
that has never been shown on television. Several online video 
programming distributors are already offering or have plans to offer 
online-only TV shows. Such programming is not currently required to 
show captions under the CVAA.
                        in-flight entertainment
    Air travel has long been one of the most frustrating experiences 
for me as a deaf person. It is maybe the only place where watching an 
uncaptioned program is my only choice of entertainment. If I am at home 
and something is not captioned, I can change the channel. If I go to a 
movie and it is not captioned, I can leave the theater. But on 
airplanes, no matter what is offered, nothing is captioned and I have 
no option but to stay. Unlike the other passengers, I must either bring 
my own entertainment or cope with programs I cannot understand. There 
is no other place where the lack of accessibility is so blatant, and 
where I feel so sharply the sting of my exclusion from the mainstream.
    It is especially disappointing that so many airlines continue to 
deny deaf and hard of hearing passengers access on behind-the-seat 
screens when many of the programs have already been captioned on 
television or in theaters. Further, when flying internationally on 
other countries' airlines, I often can watch movies with English 
subtitles. Why is it that I can enjoy access on other countries' 
airlines, but on American air carriers, I cannot have such access? The 
technology to provide captions on these behind-the-seat screens is 
already available--a few United Airlines flights currently provide 
captioned live television programming. In an age when many smart phones 
support captions, there is no reason why airlines cannot also support 
captions on their devices.
    While accessibility solutions often cost extra money, evolutions in 
technology have greatly reduced the price of providing and supporting 
captions. For instance, at the time Congress initially required 
televisions to be equipped to display captions, this could be achieved 
only through built-in circuitry that added to the price of the 
television set. However today in many devices the decoder chip has been 
replaced by a simple software program that often can be downloaded over 
the Internet at no additional cost. It also used to be that the 
captions displayed in move theaters had to be printed on the specific 
reel used for showing the movie, but today the digital format used in 
most theaters allow captions to easily be added as well as turned on/
off. In short, it has never been cheaper or easier to provide captions 
or to support captions in products, and we can anticipate the cost of 
providing accommodations to decrease as the demand for them persists.
    I continuously remind myself of how lucky I am to have grown up as 
a child of the ADA, as I enjoy far better access than deaf and hard of 
hearing people before me or than those in many countries around the 
world. We in the United States have come far, just over the course of 
my lifetime. But we have farther to go, and I hold hope for the future, 
believing that together we can make the world fully accessible for 
people with disabilities. A friend of mine once told me that the 
disability group is the only minority group that anybody might join at 
any time. An accessible world benefits all of us, and we never know 
when one of our family and friends--or even we ourselves--may need 
accessibility solutions.
    Thank you for the opportunity to testify before you today. I look 
forward to answering any questions and comments you may have.

    The Chairman. Thank you very much, Mr. Phillips.
    And now, Ms. Beaumon. Welcome, and please proceed.

STATEMENT OF BETSY BEAUMON, VICE PRESIDENT AND GENERAL MANAGER, 
    LITERACY PROGRAM, THE BENETECH INITIATIVE, PALO ALTO, CA

    Ms. Beaumon. Chairman Hawkins, Ranking Member Alexander, 
and members of the committee.
    Thank you for the invitation to present my testimony today. 
I am Betsy Beaumon, and I lead the Global Literacy Program at 
Benetech. We are in Silicon Valley, and we apply technology to 
pressing social issues.
    We currently provide accessible books to over one-quarter 
of a million people, primarily U.S. students, through our 
Bookshare service, which is the largest online source of 
accessible print materials.
    It is my intention to address the impact of disruptive 
change brought about by technology on accessibility in 
entertainment and cultural media.
    Technology is allowing us to realize the true potential of 
legislation and to partner with industry to the benefit of many 
users even beyond those users with disabilities who are the 
intended beneficiaries of the work.
    We, at Benetech, are nonprofit social entrepreneurs. We 
look for gaps in services where mainstream market is failing 
some of the people who need them. These are hallmarks of all of 
our global literacy initiatives, which also include Route 66 
literacy, a tool for teaching adolescents and adults to read, 
and the Diagram Center, an R&D center focusing on making images 
and graphics accessible to all.
    Today, I would like to focus on lessons we have learned in 
three areas: legislation, funding, and industry partnerships.
    We have directly experienced how legislation can open the 
field to new ideas. Bookshare is able to exist because of the 
Chafee amendment. This is an exception in U.S. copyright law 
that allows authorized entities to create and distribute 
accessible versions of copyrighted books to qualified users 
without publisher permission.
    This 1996 legislation, which included digital text as an 
accessible format, paired with the introduction of the World 
Wide Web a few years earlier, really set the stage for the 
birth of Bookshare in 2002, causing the first major shift in 
the field for over 50 years.
    But how can legislation complement rapidly changing 
technology? It has been clear that legislation must support 
unmet needs such as making accessible books available to people 
with disabilities, and also pave the way for innovation around 
providing what is needed.
    An example of this, allowing small, noncommercial players 
to innovate when the market is not, such as in supplying 
textual descriptions for images in books that convey critical 
information visually.
    However, we have also seen that it is best to focus on the 
kind of results we want to have, such as all people having 
books they can access rather than trying to legislate specific 
technologies or formats which will change faster than the laws 
can keep up. And when legislation works, like Chafee or the 
ADA, it needs to be used as a model to serve those not yet 
benefiting.
    Our hope is that our full collection of nearly 200,000 
Bookshare books will soon be available to print-disabled users 
around the world once the proposed Treaty for the Blind before 
the World Intellectual Property Organization is passed and 
ratified. Assuming that the provisions in this treaty are 
comparable to those of our Chafee amendment, this will be a 
significant step forward for people with print disabilities in 
the rest of the world, while allowing us to serve our U.S. 
users better at the same time.
    We also understand the valuable role of Government from a 
funding perspective. Our Bookshare funding from the Department 
of Education Office of Special Education Programs has allowed a 
great idea to go from a small offering to a major service 
benefiting students across the country. Because we receive this 
funding through a competitive process, Federal funding drove 
innovations that resulted in a more cost-effective and a higher 
impact program delivering over 15 times the impact per dollar 
of earlier methods.
    Finally, industry partnerships are crucial for making 
innovative social enterprises a success at scale. At Bookshare, 
we work with the publishing industry, so that accessibility is 
increasingly easy for them. This has led to a stunning fact: 
today, over 80 percent of the 3,000 books added each month to 
the Bookshare library come directly from publishers for free 
and typically with international rights. It becomes as easy as 
pushing a button at a company such as Ingram for books from a 
publishing partner to flow to Bookshare at the same time they 
go to iTunes or Amazon. That is immediate access, just like 
everyone else.
    As we look to the future we want, it is that all content 
producers--from publishers to teachers--are producing 
accessible content in their normal course of business without 
needing to go through a service like Bookshare. We want all 
materials that are born digital to be born accessible.
    In order for this content to work for users, however, 
accessibility must also be end-to-end addressing every link in 
the chain, not only created as accessible content, but 
delivered and consumable in a fully accessible manner. In such 
efforts, all the players must continue to innovate, continually 
looking to disrupt our own field.
    In closing, we have significant opportunities to do things 
right across the media landscape for people with disabilities. 
One of our student members told us,

          ``This access to books has given me a wonderful 
        opportunity to flourish despite my disability. I can 
        enlighten my mind, enliven my spirit, and in a way, 
        experience what I never could. In this world in which I 
        am at an inherent disadvantage, I may participate and 
        one day, perhaps, contribute to its betterment.''

    Today's technology challenges us to keep the spirit of the 
ADA in front of technology development and its impact on life 
and learning in America. While all Americans can benefit from 
access technologies such as descriptive text, Americans with 
disabilities require it and must not get left behind when 
available technology can be applied to solve it in the most 
innovative country on earth.
    Thank you.
    [The prepared statement of Ms. Beaumon follows:]

                  Prepared Statement of Betsy Beaumon

                                summary
    At Benetech, we apply technology to pressing social issues. Our 
Bookshare service, which is the largest online source of accessible 
print materials, stands at the crossroads of literacy, access for 
people with disabilities, software, and digital publishing, currently 
providing accessible books to over a quarter of a million people, 
primarily U.S. students. Bookshare was a disruption that changed the 
game and that allows many more people to receive the accessible 
materials they need. We are social entrepreneurs, and we look for gaps 
in services to the people who need them most, where the mainstream 
market is failing. There are many parallels between our sector and the 
entertainment industry.
    Industry partnerships are crucial for making approaches like this a 
success. At Bookshare, we work with those in the publishing industry so 
that we can accept the most common digital file types and can operate 
with their existing distribution chain so that accessibility is, 
increasingly, easy for publishers. This is all part of our belief that 
in the future, all content producers should be producing accessible 
content in their normal course of business. In order for accessibility 
to truly serve users, accessibility must be end to end, created 
accessible, delivered accessibly, and consumed accessibly.
    We have directly experienced how legislation can open the field to 
new ideas. For books, the Chafee amendment enabled entities like 
Bookshare to operate. But how can legislation complement rapidly 
changing technology? It's been clear that legislation must support the 
unmet need (e.g., that accessible books be available to people with 
print disabilities) and also pave the way for a range of groups to 
innovate around providing what's needed (e.g., allowing small, non-
commercial players the ability to provide content in the proper formats 
when the market is not, such as image descriptions). It's also critical 
to avoid trying to legislate specific technologies or formats, which 
will change faster than the law can keep up.
    We also understand the value of the government from a funding 
perspective. Our funding from the Office of Special Education Programs 
has allowed a great idea to go from a small offering to a major 
service, benefiting students across the country. Because we received 
this funding through a competitive process, Federal funding drove 
innovations that resulted in a more cost-effective and higher impact 
program.
    In closing, we have significant opportunities to do things right 
across the media landscape for people with disabilities. Today's 
technology challenges us to keep the spirit of the ADA in front of 
technology development and its impact on life and learning in America. 
While all Americans can benefit from access technologies such as 
descriptive text, Americans with disabilities require it, and must not 
get left behind when available technology can be applied to solve it in 
the most innovative country on earth.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
Health, Education, Labor, and Pensions Committee, my name is Betsy 
Beaumon, and I lead a team in Silicon Valley that applies technology to 
underserved communities. Specifically, my program stands at the 
crossroads of literacy, access for people with disabilities, software, 
and digital publishing, currently serving over a quarter of a million 
people, primarily U.S. students, through our Bookshare service. As 
social entrepreneurs, we look for gaps in services to the people who 
need them most, to where the mainstream market is failing. Through our 
projects, including Bookshare, the world's largest accessible digital 
library, Route 66 Literacy, a literacy teaching tool, and the DIAGRAM 
Center, an R&D center focusing on the accessibility of images, we have 
been reminded of the value of bringing a fresh, innovative perspective 
to bear on difficult challenges. At the same time, it has been through 
diving in deeper, expanding our offerings in response to the needs of 
our users, and pulling in other experts, that we have found a path to 
scaling the benefits. We have learned that addressing every link in the 
chain is of critical importance.
    We've directly experienced the value of legislation that opens up 
the field to new ideas. But how can legislation complement rapidly 
changing technology? It's been clear that legislation must support the 
unmet need (e.g., that accessible books be available to people with 
print disabilities) and also pave the way for a range of groups to 
innovate around providing what's needed (e.g., allowing small, non-
commercial players the ability to provide content in the proper formats 
when the market is not, such as image descriptions). It's also critical 
to avoid trying to legislate specific technologies or formats, which 
will change faster than the law can keep up.
    Finally, our program is a great example of the valuable role of the 
government from a funding perspective. Our funding from the Office of 
Special Education Programs has allowed a great idea to go from a small 
offering to a major service, benefiting a quarter million students 
across the country. Yet, because the competitive funds allowed us to 
propose the best approach, they encouraged a level of innovation that 
is benefiting many more users, including qualified adults.
    It is my intention to address the impact of disruptive change, 
brought about by technology, on accessibility in entertainment. In this 
realm, technology is allowing us to both realize the true potential of 
legislation, and, increasingly, to partner with industry to the benefit 
of many users, even beyond those with disabilities who are the intended 
beneficiaries of the work. In order to take a longer view of 
entertainment and cultural media, I'll focus primarily on a medium with 
a longer history, an extremely active present, and a hopeful future, 
where there may be some instructive parallels: reading.

   History of Accessible Books for Entertainment in the United States

    Well before the invention of braille in 1824 by 15-year-old Louis 
Braille, people were trying to work out technologies (such as wooden 
blocks) that might enable people who were blind and visually impaired 
to read. After all, reading was and is the primary gateway to 
education, civic engagement, and entertainment. By 1931, the program 
that became the National Library Service for the Blind and Physically 
Handicapped (NLS/BPH) was established, to carry out the Pratt-Smoot 
Act, to provide books for blind adults.\1\ It didn't take long before 
technology enabled a leap into a new medium. By 1933, in addition to a 
uniform braille code for English, the American Foundation for the Blind 
(AFB) had led the field into the beginnings of reproducible talking 
books, in the form of 33 rpm records, following on the success of the 
commercial recording industry. Some of the initial recordings first 
included in the NLS collection, for the entertainment and civic 
involvement of adults, included multiple Shakespeare plays and core 
U.S. historical documents such as the Declaration of Independence and 
Lincoln's Gettysburg Address. By this time everything was talking, 
including all movies, which was one giant leap for the industry and one 
sizable step backward for people who were deaf and hard of hearing, who 
had lost the inherent captioning of silent films.
---------------------------------------------------------------------------
    \1\ Library of Congress, NLS: That All May Read, 2012, http://
www.loc.gov/nls/about_history
.html.
---------------------------------------------------------------------------
    Recorded human audio continued to evolve with new content and new 
listening devices, as well as new groups producing materials. For the 
next 40 years or so, there were developments in technology and process 
that chipped away at the cost to produce recordings, including 
volunteer recording models and the eventual use of digital recording 
and playback technology. However, executing these services remained 
very expensive and slow relative to commercial publishing models, 
leaving citizens with print disabilities at a severe disadvantage in 
educational settings and in life, where a best-selling novel might be 
available 1 to 2 years after everyone else had read it.

    Disruption: Technology Changes the Game and Lays the Groundwork

    As with records in the 1930s, the use of digital text itself had 
started well before it was used for entertainment for people with 
visual impairments. Computers were becoming ubiquitous in the late 
1980s, setting the stage for innovators like George Kerscher and Jim 
Fruchterman. George Kerscher's Computerized Books for the Blind showed 
that one could obtain and supply books in digital text and Jim 
Fruchterman's Arkenstone showed that even printed books could be 
scanned by blind people independently and read aloud. In 1996, the 
Chafee amendment was passed, which is a codified exception in our 
copyright law that allows authorized nonprofit entities, such as 
Bookshare, whose primary mission is to serve people with disabilities, 
to create specialized, accessible versions of copyrighted books without 
the need to request permission from publishers and then distribute them 
freely to people with print disabilities. This legislation, which 
included support for digital text, along with the introduction of the 
World Wide Web a few years earlier, set the stage to create, 
distribute, and read accessible books in a whole new way, as it put 
power to create accessibility into the hands of people with 
disabilities and the organizations that serve them.
    The Bookshare library was born out of a combination of these 
technologies and legislation, causing the first major shift in the 
field for over 50 years. The cost and time involved in delivering an 
accessible book for pleasure reading soon began to drop with the 
evolution of an industrial strength platform, as well as ensuring that 
reading tools and other parts of the delivery chain were included in 
the model. Commercial applications for text-to-speech (TTS) voices, 
such as GPS technology giving turn-by-turn directions, improved the 
listening experience at ever lower costs. Meanwhile, the same text 
files were used to deliver digital braille on demand, creating a level 
of availability for braille that was simply unheard of.
    The Bookshare platform soon became a go-to source of entertainment 
for thousands of adults with print disabilities, who, for the first 
time, were able to engage in activities such as browsing through lots 
of books to decide which to read. In 2007, the Bookshare for Education 
award marked another major turning point. The significant economies of 
scale meant dramatically improved quality, timeliness, and ease of 
access for U.S. students. The project delivered double what it 
promised; serving over 200,000 students, while delivering over 
3,000,000 book downloads. Among those downloads are many books that 
were downloaded for supplementary reading, and reading for fun, because 
when reading is no longer an impossible chore, it's entertaining. This 
tendency toward excessive reading seems particularly pronounced in 
users of mobile tools--from braille displays to iPhones, which weren't 
even invented when this award began.
    Bookshare has made a significant impact on the lives of our members 
and their families. Parents are relieved of a large part of the burden 
that used to fall upon them to make sure that their child has the books 
that they need for their education. Our tools allow students with print 
disabilities to learn alongside their non-disabled peers, as they are 
able to receive their textbooks in a version that they can access at 
the beginning of the school term. Additionally, they are able to read 
using mainstream technology, such as smart phones and tablets, rather 
than using traditional, clunky assistive technology devices that set 
them apart as different. One of our student members told us:

          ``This access to books has given me a wonderful opportunity: 
        to flourish despite my disability. I can enlighten my mind, 
        enliven my spirit, and, in a way, experience what I never 
        could. In this world, in which I am at an inherent 
        disadvantage, I may participate, and, 1 day perhaps, contribute 
        to its betterment.''

      industry partnerships: make it easier to do the right thing
    As an organization scanning copyrighted content and providing it to 
a growing group of users, the relationship with the dominant commercial 
players in the space, publishers, has had its difficult moments. 
However, there are two factors that have significantly turned this 
around: we reach out regularly to form partnerships built on trust and 
understanding, and we leverage the latest technology to make it easy to 
work with us. This has led to a stunning fact: today, over 80 percent 
of the 3,000 books added each month to the Bookshare library come 
directly from publishers, for free and typically with international 
rights.
    Our hope is that our full collection of nearly 200,000 Bookshare 
books will soon be available once the Treaty for the Blind sponsored by 
the World Intellectual Property Organization is passed and ratified. 
Assuming that the provisions in this treaty are comparable to those of 
our Chafee amendment, this will be a significant step forward for 
people with print disabilities in the rest of the world as they will 
gain the same rights to receive books in accessible formats that exist 
in the United States. Passage of the treaty would also more easily 
facilitate the international transfer of accessible books to this 
population, thus increasing our capacity to serve them.
    In most other countries, through rights from our partners and a 
small but growing amount of open content, Bookshare users have access 
to over 90,000 digital titles (vs. almost 200,000 in the United 
States). Just 4 years ago, this international number was under 10,000. 
Bookshare's collection is leap-frogging the online collection of 
primary libraries for people with print disabilities in other highly 
developed countries, who remain centered heavily on older formats such 
as human audio recordings, and often do printed braille distribution 
and other services: RNZFB in New Zealand: around 11,000 books \2\; RNIB 
in the UK: more than 25,000 books and images \3\; Vision Australia: 
over 25,000 \4\.
---------------------------------------------------------------------------
    \2\ Royal New Zealand Foundation of the Blind, Library, 2010, 
http://www.rnzfb.org.nz/members/library.
    \3\ Royal National Institute of Blind People, RNIB Audio Book 
Service-Talking Books, 2013, http://www.rnib.org.uk/
livingwithsightloss/reading/services/talkingbooks/Pages/talking_
books_daisy.aspx/.
    \4\ Vision Australia, Talking Books, 2012, http://
www.visionaustralia.org/living-with-low-
vision/library/books-and-resources/talking-books.
---------------------------------------------------------------------------
    Our hope is that our full collection of nearly 200,000 Bookshare 
books will soon be available once the Treaty for the Blind sponsored by 
the World Intellectual Property Organization is passed and ratified. 
Assuming that the provisions in this treaty are comparable to those of 
our Chafee amendment, this will be a significant step forward for 
people with print disabilities in the rest of the world as they will 
gain the same rights to receive books in accessible formats that exist 
in the United States. Passage of the treaty would also more easily 
facilitate the international transfer of accessible books to domestic 
users, thus increasing our capacity to serve them.
    What are the key aspects of making it easier for publishers? The 
first is format: digital text is increasingly the distributed format 
(vs. PDF image files), and we accept the most common publishing 
standards as acceptable input formats. The second is distribution: by 
working with their distribution chain, we provide an easy path to 
implement the decision to work with us. It has become as easy as 
pushing a button at a company such as Ingram for books from a 
publishing partner to flow to Bookshare at the same time as they go to 
iTunes or Amazon.
 focus end to end: it has to be born accessible, delivered accessibly, 
                        and consumed accessibly
    As we look to the future we want, it is that all content producers 
are producing accessible content in their normal course of business. 
The third approach to making it easier and cheaper to include 
accessibility is to provide tools, guidelines, and services to help, 
leveraging other commercial tools and players whenever possible. And in 
these efforts all the players must continue to innovate, continually 
looking to disrupt our own field.
    The publishing industry is learning about disruption on a grand 
scale right now, as the shift to e-books, mobile devices, and fully 
digital production changes everything they do. They are following the 
film and recording industries into a digital future. The opportunities 
for fully digital new content to be ``Born Accessible'' are huge, and, 
as with other media, building it in from the get-go is the best 
approach. That means authors describing images or producers describing 
video wherever possible.
    However, accessible content that gets lost in an inaccessible 
distribution channel, or delivered to an inaccessible device (or venue) 
is not usable by a person with a disability. Therefore, even the best 
content isn't enough. In the e-book world it means working with 
distributors and the makers of reading tools to make sure those tools 
are fully accessible to use, and fully support the accessible content. 
In education this has been supported by the tools makers' desire to 
provide their tools where accessibility is a requirement.
                  books and movies: getting more alike
    At its most basic technical level a digital file is a digital file, 
whether it's an e-book, a movie, or a combination. The line defining 
what is a book is blurring, as these combinations increase. In e-books 
full accessibility includes accessible images, accessible math, and 
accessible video, where videos require captioning and description, just 
as in the video entertainment industry. Both books and videos are 
distributed either initially or eventually online, often through the 
same retailers, many of whom have either captive streaming applications 
or specialized readers/players. Theaters are not currently a channel 
for books, while audio (only) books are now available on some 
airplanes.
    As in movies, the challenge of accessibility in rich, digital books 
involves adding new content to describe visual elements, or encoding 
existing content, such as math, in a new way, similar to encoding 
dialog in a new way for movies. In both industries in the United States 
there has been some success, with a lot more work to be done. Just as 
we at Benetech are applying innovative technology in a quest for the 
easiest, least expensive approaches for publishers and their partners 
to include these elements, there are projects underway looking at ways 
to similarly change the game in video description and captioning. The 
Carl and Ruth Shapiro Family National Center for Accessible Media 
(NCAM) at WGBH and Smith-Kettlewell are two organizations working at 
the forefront of these approaches. Under the Department of Education, 
Office of Special Education Programs (OSEP) funding, our DIAGRAM 
project is leveraging the experience of both groups in multimedia while 
looking at new ways to provide image access, and the VDRDC (Video 
Description Research and Development Center) out of Smith-Kettlewell is 
keeping DIAGRAM approaches in mind for video description.
    It is my hope that some of the best technologies and operating 
models employed in making digital books and videos accessible can lead 
directly to answers in one of the fastest growing arenas for both 
entertainment and education: interactive games and simulations.
                      an international perspective
    In contrast to a relatively limited application of technological 
innovation in accessible e-books outside the United States, at least 
one other country has taken a lead in providing accessible television 
for consumers who require video description (which they refer to as 
audio description, ``AD''), the United Kingdom. In the UK all public 
broadcasters offer AD services on traditional TV, transmitting 23.1 
percent of programs with this feature in 2012. Including commercial 
stations, 65 TV channels are required to carry at least 10 percent of 
their broadcasting with AD, many exceeding 30 percent, some more than 
40 percent. (Source: Ofcom).
    The Royal National Institute of Blind People (RNIB) has been a 
major player in this work, with strong government funding to work in 
conjunction with the other critical parts of the value chain, and 
strong consumer support from Ofcom, the regulatory agency much like the 
FCC in the United States. This includes the set top boxes, movie 
theaters, and talking TVs. As with e-books, all of those links in the 
chain must be accessible and in sync for a successful, scalable 
offering.
    In closing, we have significant opportunities to do things right 
across the media landscape for people with disabilities. Twenty-five 
years ago bold new universal design ideas like curb cuts were embedded 
into the law, to the benefit of all. Today 21st century technology 
challenges us to keep the spirit of the ADA in FRONT of technology 
development and its impact on life and learning in America. While all 
Americans can benefit from access technologies such as descriptive 
text, Americans with disabilities require it, and must not get left 
behind when available technology can be applied to solve it in the most 
innovative country on earth.

    The Chairman. Thank you very much, Ms. Beaumon.
    And now, Mr. Charlson, we will turn to you. Please proceed, 
Mr. Charlson.

        STATEMENT OF BRIAN CHARLSON, CHAIR, INFORMATION 
 ACCESS COMMITTEE, AMERICAN COUNCIL OF THE BLIND, WATERTOWN, MA

    Mr. Charlson. Thank you very much Chairman Harkin, and 
Ranking Member Alexander, members of the committee.
    I want to thank you for an opportunity to come here and 
speak to you today. My remarks are going to be a little bit 
more extemporaneous than others here today partly because I am 
a late adopter of Braille, but I also love Braille and don't 
think that any technology outweighs its advantages. I use the 
same technology I first used when I was blinded at the age of 
11, a talking book machine. Though instead of records spinning 
around with a needle resting against it to bring the voice of a 
narrator to my ears, I now rely more on digital playback 
devices and synthetic speech. The fact of the matter still is 
that I have access to this information as a result of 
technologies.
    In addition to being the chairman of the American Council 
of Blind Access Information Committee, I am also a director of 
technology at a place called The Carroll Center for the Blind 
in Newton, MA where I have been working with blind and visually 
impaired children and adults over the past 28 years, teaching 
them to use these technologies to gain access to education, 
employment, and daily living.
    One of the things that first brought these issues of access 
to the video world to me was I happened to move to 
Massachusetts where there was a little organization called 
WGBH, public television, and the same people who brought us 
closed-captioning said, ``Well, maybe we can bring television 
to the blind as well.''
    I was asked to serve on a focus group there and with great 
people, both in the industry and in the community, we were able 
to develop audio description, or then called DVS, Descriptive 
Video Service, into something that was both high quality and 
had the potential to give us the quantity of material that our 
sighted peers had.
    I want to talk to you a little bit about my theater 
experience over the years. The first movie I ever saw in a 
public theater was ``Titanic,'' and the name really does apply 
to the experience of sitting in the theater, having that 
incredible sound system wrapped around me, sitting there with 
both blind friends and sighted friends, experiencing a movie 
that the world itself referred to as, ``an experience, not just 
going to the theater.''
    The last movie I had the privilege to go to the theater to 
watch was ``Les Miserables,'' and I have to say that I am just 
as moved today by the fact that I am sitting there enjoying it 
with everybody else in the theater as I was when I saw 
``Titanic'' that first time.
    Over the course of those years, a number of different 
technologies were put in place to try to bring that audio 
description to me: infrared, FM systems, even systems where the 
signal was actually in the flicker rate of the video as it was 
passing across the screen in front of me.
    Luckily, the theaters in the Boston area have been early 
adopters of these technologies, and while there were times when 
I showed up at the theater to find out that the content arrived 
in a format that was not supported by the technology in the 
theater, I nonetheless came back time and time again until such 
time as those were available to me.
    I see in the future the time when I am going to be able to 
not go into a theater and expect that the theater is providing 
the technology, but that I have it in my own hand. In front of 
me, I have my iPhone which, enabled with speech, allows me to 
watch things like Netflix movies. Alas, at this point, not with 
the audio description track.
    Or, my iPad mini which allows my low vision friends to be 
able to get a larger image that they could take this into the 
theater and hold it in front of them in order to get access to 
things in a magnified way where they can bring the image to 
their face rather than having to sit in the front row and crane 
their necks throughout the performance. Again, this is a matter 
of bringing your own technology.
    There is another experience I want to bring to your 
attention, and that has to do with flying on an airplane. As my 
deaf colleague mentioned before, we are kind of a captive 
audience once we get on a plane. With me, the only way I have 
been able to deal with that is to bring my own technology. It 
is not unusual to be behind the line as I go through the 
security lines and I have got three bins in order to spread out 
all the different technologies that I bring onboard, instead of 
being able to have access to that screen on the back of the 
seat in front of me.
    For me, it is not, though, just a matter of access to the 
content with audio description. It is access to the menus that 
allow me to interact with them. I recently flew on that 
beautiful Dreamliner to Tokyo and then onto Bangkok. And when 
it came time for me to push the button to call the flight 
attendant to give me an idea where the restrooms were relative 
to where I was sitting, it turned out there was no button for 
me to push. It was an onscreen experience that was inaccessible 
to me. Why, I also found out from my co-riders that day that I 
was expected to make a meal choice, again, onscreen in a manner 
that is not accessible to me.
    Over the course of the past 6 months or so, I have traveled 
from East Coast to West Coast at least eight times, and seven 
of those eight times, the same experience was true. Don't think 
that it is just a matter of the Dreamliner and the latest 
technology that creates these kinds of problems.
    I bring my own technology with me, and I am also very aware 
that it is not always my life. You know, there are as many 
different kinds of blind people as there are different kinds of 
sighted people. I happen to not have any children, but I have 
many friends who are blind who do have children and they want 
to interact with that movie to see what their children are 
seeing when they go to the theater. They want to interact with 
that back of seat screen in order to control what their kids 
are watching while they are flying across country. Again, it is 
a matter of equal access, not extra access.
    Now, the last thing I would like to mention to you is what 
the future holds and, of course, this is online. Whether it is 
on the cloud, or an application on my desktop that accesses 
information that is over the Internet, I need full access to 
that experience.
    Currently, one of the worst experiences that a blind person 
can have on the Internet is attempting to access media to be 
able to know which control is the pause button, which one is 
the fast forward when all of them are identified as ``button,'' 
without any identifier as to what that button's function is.
    Again, we need to find a way to let the industry know that 
we are an important part of their market. Their market is not 
made up of one constituency; it is made up of thousands of 
constituencies. And whether it is online, in a plane, or in the 
theater, we need our Government support and we need industry 
support to assure that we are going to have access through the 
entire array of what makes for media access.
    Thank you for your time and attention.
    [The prepared statement of Mr. Charlson follows:]

                  Prepared Statement of Brian Charlson

                                Summary
    Now that video content is not limited to television and movies, but 
have expanded to YouTube, Hulu, and Apple TV, the challenges presented 
by a wide array of content, distribution systems, hardware, and 
controls makes the chore of accessing this content a steep climb for 
both the producer and consumer.
    I fully support S. 555, the Captioning and Image Narration to 
Enhance Movie Accessibility Act, and believe strongly that video 
description should be fully incorporated into all movies being produced 
in digital format and should be provided at all theaters that use 
digital technology to display movies. However, it is my firm conviction 
that theaters should not be permitted to delay the deployment of video 
description until digital conversion occurs. In fact, it is my position 
that video description should be provided in any instance and at every 
venue where visual information is an essential part of the information 
conveyed or the performance provided to members of the public. Without 
video description, such individuals have only very limited access to 
the information provided to the sighted public. Beyond this, I believe 
strongly that as more and more movies are offered to the public over 
the Internet and on DVD's, it is essential that video description be 
incorporated into both of these formats. Video description deserves the 
same recognition that is accorded to captioning by the movie industry, 
the Federal Government and the general public.
    While the Twenty-First Century Communications and Video 
Accessibility Act (CVAA) has and will enable people who are blind or 
visually impaired to gain greater access to information and 
entertainment, there are still significant areas of accessibility 
challenges. Current gaps in technology policy exist with regard to 
online entertainment and the overall accessibility of the Internet. The 
blind community is eagerly awaiting rules from the U.S. Department of 
Justice that should apply Title III of the Americans with Disabilities 
Act to the Internet. Currently, people who are blind or visually 
impaired have significant challenges accessing content of all types 
when surfing on the Web. Accessing entertainment options is often quite 
challenging as links are not tagged to inform the user that content is 
available to be viewed or downloaded.
    Today, you can go to a movie theater or watch television shows with 
video description. Unfortunately, when you visit Web sites that provide 
this content, most all of the programming is not accompanied by 
description because there is no requirement to do so. The same holds 
true with the sale of DVD's. The Academy Award winner for best picture, 
``Argo,'' was video described in the movie theater. When a blind 
consumer goes to a store to purchase a copy of ``Argo'' on DVD, 
frustration and disappointment set in when they realized that the video 
described version that they had enjoyed in the theater is not included 
on the DVD.
    Airlines are rapidly deploying touch-screen technologies as part of 
their in-flight entertainment experience. While this technology is 
considered cutting edge, the airlines have not implemented these 
technologies with me in mind. In fact, on an increasing number of 
airplanes the flight attendant call button is now located on the screen 
and is no longer a button in the ceiling. ACB endorses S. 556, Air 
Carrier Access Amendments Act that call for these technologies to be 
made accessible so that people who are blind or visually impaired can 
have the same entertainment experience as other sighted travelers.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the HELP 
Committee, I want to thank you for the invitation to discuss the need 
to improve accessibility from the ``Movie Screen to Your Mobile 
Device.''
    The Carroll Center for the Blind is a private not-for-profit 
organization providing blind and visually impaired children and adults 
training in skills that lead to greater independence and improved 
quality of life. I have worked at The Carroll Center for the past 28 
years teaching blind and visually impaired people to use technology for 
education, employment, and independent living.
    The American Council of the Blind (ACB) is a non-profit 
organization that represents the interests of blind and visually 
impaired people throughout the United States. Based in the Washington, 
DC area, ACB has tens of thousands of members from across this country 
who belong to more than 70 State and special interest affiliates. I am 
proud to say that I have been a member of ACB for the past 42 years.
    As a teacher, advocate, and consumer, access to video content and 
the technologies to access them has played an important part in my life 
and the lives of those I interact with on a daily basis. What progress 
I have been privileged to assist with has largely been the result of 
collaboration. Recent examples of such collaboration include addressing 
concerns, such as full access to education for students, full access to 
the work environment for blind employees, access to entertainment and 
educational content and information contained in videos, as well as, 
full access to the increasing array of advanced communications options 
in a multitude of settings.
    My initial direct involvement in the concept of audio description 
came as a member of an advisory committee to WGBH Public Television. My 
friends and I viewed many hours of such programs as Mystery and 
American Play House. We helped those developing this craft to do so in 
a manner that was based on the everyday language and vocabulary of 
those who are blind or visually impaired. We helped them understand 
that sometimes less is more and the importance of not ``stepping on'' 
the dialog, music, and other elements of the preexisting soundtrack.
    When this process was expanded to include movies on video tape, we 
were pleased to see that the same principles we had developed together 
for television would also work for movies, but we were limited to only 
those movies that a very few producers were able to adapt.
    As technology changed from the video tape to the DVD, some of the 
accessibility was lost, in that I and my friends had no means to 
navigate the on-screen menus required to play the audio described 
soundtrack. We now must rely on sighted friends and family to turn on 
audio description each time we want to watch a movie in our homes.
    The first movie I ever enjoyed in a public theater, thanks to audio 
description, was ``Titanic.'' Prior to that moment, I avoided movie 
theaters out of frustration and concern that the whispered descriptions 
provided to me by friends and family would disturb those sitting near 
us in the theater. The last movie I watched in the theater was ``Les 
Miserables,'' but between those two there were times, when as the 
technology changed, I arrived to the theater only to find that the 
equipment in the theater did not support the format of the movie I came 
to see. In spite of this, my friends and I continued to be regular 
movie goers and enjoy sharing them with one another and our sighted 
friends and family.
    Now that video content is not limited to television and movies, but 
have expanded to YouTube, Hulu, and Apple TV, the challenges presented 
by a wide array of content, distribution systems, hardware, and 
controls makes the chore of accessing this content a steep climb for 
both the producers and the consumer. It is, however, an ascent we must 
all take responsibility for.
    In 2008, ACB established the Audio Description Project (ADP) to 
boost levels of description activity and disseminate information on 
audio description work throughout the United States and worldwide. We 
use the term, audio description, in order to explain the broader use of 
this information delivery mechanism. We advocates and consumers are 
committed to the development of audio description in a wide range of 
formats, including content intended for broadcast via television, 
movies, along with the performing arts, and museums.
    The most current demographic information available reveals that 
more than 25 million Americans (about 1 out of every 15 people) report 
experiencing significant vision loss, i.e., individuals who have 
trouble seeing, even when wearing glasses or contact lenses, as well as 
individuals who are blind.
    I fully support S. 555, the Captioning and Image Narration to 
Enhance Movie Accessibility Act, and believe strongly that video 
description should be fully incorporated into all movies being produced 
in digital format and should be provided at all theaters that use 
digital technology to display movies. However, it is my firm conviction 
that theaters should not be permitted to delay the deployment of video 
description until digital conversion occurs. In fact, it is my position 
that video description should be provided in any instance and at every 
venue where visual information is an essential part of the information 
conveyed or the performance provided to members of the public. Without 
video description, such individuals have only very limited access to 
the information provided to the sighted public. Beyond this, I believe 
strongly that as more and more movies are offered to the public over 
the Internet and on DVD's, it is essential that video description be 
incorporated into both of these formats. Video description deserves the 
same recognition that is accorded to captioning by the movie industry, 
the Federal Government and the general public.
    Perhaps the most important need addressed by description for video 
content is the ability to bring children and adults who are blind or 
have low vision into the mainstream of society. The inability of 
anyone, adult or child, to participate fully in popular culture, which 
has a unique power to bind us together, effectively alienates 
individuals who are blind or visually impaired from his/her community.
    As such, description provides the keys to our culture, to the 
extent that description helps people who are blind or visually impaired 
to be more familiar with media (television and movies), museums, 
theater, and other everyday events, thus allowing the description user 
to be more engaged and engaging individuals. This makes it possible for 
the user of description to be more socially integrated into society. 
The addition of description to a soundtrack is likely to increase the 
size of the audience of those who are blind or visually impaired. 
Description enhances the viewing experience not only for those who need 
the service, but also for those who view content with the blind or 
visually impaired person.
    ACB was a leading advocate for the Twenty-First Century 
Communications and Video Accessibility Act's (CVAA) passage. Access to 
described programming on television, increasing the accessibility of 
wireless devices, such as smartphones and tablets, and insuring that 
their Web browsers are accessible, are just a few of the provisions 
that will enhance our entertainment experience.
    As a result of passage of the CVAA, beginning July 1, 2012, TV 
stations that are broadcast affiliates of the top four national 
networks in the 25 largest TV markets, as well as cable and satellite 
TV systems with more than 50,000 subscribers, were required to comply 
with the FCC's video description rules (although updated to reflect the 
digital TV transition and a widespread phase-in mandated by the U.S. 
Congress). Reinstatement of video description was a critical provision 
for ACB, fulfilled in passage and enactment of the CVAA.
    The FCC's newer rules require:

    <bullet> broadcast affiliates of ABC, CBS, FOX and NBC located in 
the top 25 TV markets to provide 50 hours per calendar quarter (or 
about 4 hours per week) of video-described prime time and/or children's 
programming;
    <bullet> channels such as the Disney Channel, Nickelodeon, TBS, 
TNT, and USA, must also provide 50 hours per calendar quarter of video-
described prime time and/or children's programming;
    <bullet> all network-affiliated broadcast stations and cable and 
satellite TV systems must pass through any available video description 
provided with network programming that they carry if they have the 
technical capability to do so and are not using the audio track for 
other program-related content. This pass-through requirement also 
pertains to TV delivered over telephone systems;
    <bullet> once a program is aired with descriptions, re-runs of that 
program must also include video description unless the capability of 
providing description is being used for other program-related content;
    <bullet> exclusion of networks when there is a significant amount 
of live prime-time programming.

    While the CVAA has and will enable people who are blind or visually 
impaired to gain greater access to information and entertainment, there 
are still significant areas of accessibility challenges. Current gaps 
in technology policy exist with regard to online entertainment and the 
overall accessibility of the Internet. The blind community is eagerly 
awaiting rules from the U.S. Department of Justice that should apply 
Title III of the Americans with Disabilities Act to the Internet. 
Currently, people who are blind or visually impaired have significant 
challenges accessing content of all types when surfing on the Web. 
Accessing entertainment options is often quite challenging as links are 
not tagged to inform the user that content is available to be viewed or 
downloaded.
    Today, you can go to a movie theater or watch television shows with 
video description. Unfortunately, when you visit Web sites that provide 
this content, most all of the programming is not accompanied by 
description because there is no requirement to do so. The same holds 
true with the sale of DVD's. The Academy Award winner for best picture, 
``Argo,'' was video described in the movie theater. When a blind 
consumer goes to a store to purchase a copy of ``Argo'' on DVD, 
frustration and disappointment set in when they realized that the video 
described version that they had enjoyed in the theater is not included 
on the DVD.
    Airlines are rapidly deploying touch-screen technologies as part of 
their in-flight entertainment experience. While this technology is 
considered cutting edge, the airlines have not implemented these 
technologies with me in mind. In fact, on an increasing number of 
airplanes the flight attendant call button is now located on the screen 
and is no longer a button in the ceiling. ACB endorses S. 556, Air 
Carrier Access Amendments Act that call for these technologies to be 
made accessible so that people who are blind or visually impaired can 
have the same entertainment experience as other sighted travelers.
    I thank the committee for giving these issues increased visibility 
and stand ready to assist in any way possible.

    The Chairman. Thank you very much, Mr. Charlson, for a very 
lucid testimony.
    Now we will go to Mr. John Fithian, president and CEO, 
National Association of Theatre Owners. Welcome back. You have 
been here before.
    Mr. Fithian. I have. That is right.
    The Chairman. Welcome back, Mr. Fithian.

    STATEMENT OF JOHN FITHIAN, PRESIDENT AND CEO, NATIONAL 
         ASSOCIATION OF THEATRE OWNERS, WASHINGTON, DC

    Mr. Fithian. Thank you, Chairman Harkin and other members 
of the committee for the opportunity to be here today.
    The National Association of Theatre Owners represents more 
than 30,000 movie screens in all 50 States, and we employ more 
than 125,000 people. The theater industry is experiencing a 
dramatic transformation from film-based delivery in projection 
to digital cinema systems. This revolution makes it possible to 
bring very good news to the committee.
    The Nation's theater operators have voluntarily and 
proactively installed more than 18,000 movie auditoriums with 
closed-caption and description audio systems for deaf and blind 
patrons. NATO's members over the years have spent hundreds of 
millions of dollars to expand accessibility.
    Theater operators proudly accommodate mobility-impaired 
patrons with accessible doors, box offices and concession 
counters, passive travel, restrooms, and of course, wheelchair 
seating in each auditorium. We accommodate service animals.
    For our patrons who are hard of hearing, our theaters use 
infrared assistive listening systems. I wish you had had that 
when you saw ``Lincoln'' the other day, Chairman Harkin. Until 
very recently, however, it has been more difficult to 
accommodate deaf patrons for whom assistive listening devices 
are insufficient.
    NATO members did help develop the first open-captioned film 
program where special copies of movies were distributed to 
volunteer theater companies for advertised screenings. Many 
NATO members also installed closed-caption systems in select 
auditoriums for the exhibition of those movies distributed with 
captions.
    In spite of these efforts, though, open and closed 
captioning in the film era encountered only moderate success. 
Open captioned screenings, which use readable subtitles that 
are always visible to all patrons, draw few deaf patrons to the 
cinema and drive hearing patrons away. When NATO members offer 
the same movie in two auditoriums, one with open captions and 
one without, very few patrons attend the open captioned screen.
    Closed-captioned screenings using text visible only to the 
viewer who requests it do not produce the same disincentive for 
attendance by hearing patrons. But the systems were rarely used 
in the film terms. Closed captioning in the film era also 
imposed very significant costs on theater operators.
    Now, NATO has maintained for some time that our industry's 
conversion from film to digital would enable much greater 
access. And today, the industry has nearly completed our 
transition to digital distribution and projection. 
Approximately 88 percent of the Nation's movie screens are now 
digital. Throughout this transition, NATO's members have worked 
aggressively to ensure that new theater systems would enable 
greater access. We first developed technology standards that 
enabled captioning and description.
    Then our members, led by Regal Cinemas of Tennessee, worked 
closely with access equipment companies by providing technical 
guidance, cinema testing locations, and design requirements. 
NATO's members have organized hands-on demonstrations of 
prototypes to representatives of the disabled community and to 
industry participants, and friends from the National 
Association of the Deaf and others, came to see these 
demonstrations and commented on our equipment.
    These efforts resulted in two important advances. First, 
all major movie distributors now provide captions and 
descriptions with virtually all of their movies. NATO is 
grateful to the Motion Picture Association of America and their 
movie studio members for the supply of captioned and described 
movies.
    Second, equipment vendors have created new systems to 
provide captioning and description in digital cinemas. Some of 
these systems involve seat-mounted screens with built-in 
caption displays and descriptive audio headsets. Other systems 
involve captioning in eyeglasses that can be worn by deaf 
patrons.
    America's cinema owners are now rapidly installing 
captioning and description systems. More than 18,000 movie 
screens, which means 53 percent of the total digital cinema 
market now have this equipment all across the country. The 
equipment is mostly first generation such that the industry has 
experienced the typical challenges associated with new 
technologies, including the need for greater staff training, as 
well as design modifications.
    Equally important, we must all work together to market the 
availability of these products. From the testimony I have heard 
today, I know we need to get the word out better about the fact 
that we have so many of these devices installed. We want as 
many deaf and blind patrons as possible to attend our cinemas 
and have a great experience at the movies.
    As a final note, we are, of course, aware that Chairman 
Harkin recently introduced legislation and the Department of 
Justice has plans for rulemaking. Our industry strongly opposes 
such legal mandates, which would only serve to enrich trial 
lawyers instead of improving access. The movie theater industry 
has been so proactive in expanding access to our cinemas, that 
additional Government regulation is unnecessary.
    Thank you.
    [The prepared statement of Mr. Fithian follows:]

                   Prepared Statement of John Fithian

                                summary
    <bullet> The movie theater industry wants all deaf, blind, hard-of-
hearing and visually impaired patrons to feel welcome in attending our 
cinemas and have access to a great experience at the movies--and we are 
working toward that goal every day.
    <bullet> NATO and its members have spent hundreds of millions of 
dollars and countless working hours on making movie theaters as 
accessible as possible to moviegoers with disabilities.
    <bullet> While captioning in the film era was prohibitively costly 
to movie theater owners and movie studios, the industry's conversion to 
digital cinema has unleashed a new generation of access enabling 
technologies.
    <bullet> The pace of these innovations is accelerating access 
markedly. Over the past year, digital technology has enabled the 
distribution of more movies than ever with captions and descriptions, 
as well as the rollout of a new generation of closed captioning and 
descriptive video devices. America's movie theaters are voluntarily 
installing these systems as fast as the manufacturers can produce them.
    <bullet> To spur innovation and promote greater access, NATO 
members have: (1) provided technical guidance, cinema testing 
locations, design requirements and other aid to access equipment 
companies; (2) organized hands-on demonstrations of prototype access 
equipment to representatives of the disabled community and industry 
participants; and (3) taken the lead public advocacy position in the 
movie industry to promote closed captioning and video description using 
newspapers, company and third-party Web sites, box office signage and 
other press materials.
    <bullet> As a result of these proactive and voluntary initiatives 
taken by the movie theater industry, more than 18,000 (53 percent) of 
America's digital cinema screens are now enabled for closed captioning 
and video description.
    <bullet> Neither the CINEMA Act (S. 555) nor current proposed 
Department of Justice rulemakings reflect adequate understanding of the 
scale, pace or success of current voluntary efforts by the cinema 
industry to expand access. NATO strongly opposes such coercive 
government mandates as demonstrably unnecessary in light of the 
progress the movie industry is making on access issues. Indeed, NATO 
feels such heavy-handed regulation would be a threat, rather than a 
spur, to progress in this area.
                                 ______
                                 
    Chairman Harkin, Senator Alexander, and members of the committee, 
thank you for the opportunity to appear before you today on behalf of 
over 600 motion picture theater companies operating here in the United 
States. Our organization, the National Association of Theatre Owners, 
represents more than 30,000 movie screens in all 50 States, and our 
industry employs more than 125,000 people.
    The movie theater industry is currently experiencing a dramatic 
transformation from analog, film-based delivery and projection 
technologies, to digital cinema systems. In an atmosphere of industry 
innovation and cooperation, this conversion enables more widespread 
installation of closed captioning systems for deaf patrons and 
descriptive audio systems for blind patrons. As a result of the 
proactive and voluntary initiatives of our members, more than half of 
all digital cinema auditoriums now have captioning and description 
technologies, and the number is growing every day.
    Let me describe how we arrived at this exciting point in our 
industry's history.
   america's theater operators strongly support access for disabled 
                                patrons
    NATO and its members have long been committed to making movie 
theaters as accessible as possible to all Americans, including those 
with disabilities. NATO testified in favor of passage of the ADA when 
the legislation was first debated in Congress. When the ADA Standards 
for Accessible Design (ADA Standards) were first promulgated by the 
Department of Justice, NATO prepared and circulated an ADA Compliance 
Manual to assist theater owners in designing compliant theaters. Since 
the ADA Standards became effective, NATO and its members have continued 
to work closely with the Access Board, the ANSI A117 Committee, the 
DOJ, State and local authorities, other industry groups, and disability 
rights groups to clarify and implement the requirements of the ADA.
    The great majority of NATO members are small businesses operating 
fewer than 20 screens. The typical NATO member has no construction 
department, no in-house architect, no staff attorneys, and no 
regulatory affairs specialists. For most members, the owner/operator is 
solely responsible for regulatory compliance, including ensuring that 
new construction, renovations, and alterations meet the requirements of 
the ADA.
    At the same time, our membership also includes larger regional and 
national movie theater chains that have often taken the lead to develop 
better technologies to provide greater access for patrons with 
disabilities. I will talk a bit more about some of those innovations in 
a minute.
    NATO's members have spent hundreds of millions of dollars and 
countless working hours to expand accessibility in America's movie 
theaters. Theater operators proudly accommodate mobility-impaired 
patrons with accessible doors, box office and concession counters, 
paths of travel, restrooms, and most importantly, wheelchair seating 
spaces in each auditorium. We accommodate service animals. For our 
patrons who are hard of hearing, our theaters use infrared assistive 
listening systems. These systems include an emitter for each 
auditorium, which provides the audio output, and headsets, which are 
generally made available to patrons either at the box office or at the 
guest services counter within the theater.
       movie captioning for the deaf presented unique challenges 
                          until very recently
    Until very recently, however, it has been more difficult to 
accommodate deaf patrons for whom assistive listening devices are 
insufficient. NATO and our members actively supported movie access for 
these patrons for more than 20 years, but with only moderate results. 
We helped develop the first open caption film program with our partners 
in the movie studios and at InSight Cinema (formerly ``Tripod''). In 
this program, copies of movies, which we call ``film prints,'' were 
distributed with open captions to volunteer movie theater companies for 
advertised screenings. After closed captions for film were introduced 
with the WGBH Rear Window Captioning system, many NATO members 
installed closed caption systems in select auditoriums for the 
exhibition of those movies distributed with captions, and publicly 
advertised the availability of these special screenings.
    In spite of these efforts, open and closed captioning in the film 
era encountered only moderate success for several reasons. The 
production, distribution and exhibition of open captioned prints is 
expensive. Movie studios were only able to distribute a limited number 
of prints for a limited number of movie titles. Even more problematic, 
open captioned screenings draw few deaf patrons to the cinema and drive 
hearing patrons away. When NATO members offered the same movie in two 
auditoriums, one with open captions and one without, very few patrons 
attended the open captioned screening even if the other auditorium was 
crowded.
    Closed captioned screenings do not produce the same disincentive 
for attendance by hearing patrons. But despite advertising by theater 
companies and the technology providers of the availability of closed 
captioned movies in designated cinemas, usage surveys show that the 
systems were rarely used. Closed captioning in the film era, moreover, 
imposed very significant cost burdens on the theater operators, as the 
cost of the equipment vastly exceeded the negligible additional 
revenues generated.
  with the advent of digital cinema, the industry has made tremendous 
 progress toward the goal of greater access for deaf and blind patrons
    NATO has maintained for some time that our industry's conversion 
from film to digital technologies would enable much greater access for 
deaf and blind patrons. Events during the past year have proved that 
statement to be true. We are very excited about these developments.
    Digital cinema constitutes the greatest technological transition in 
the cinema industry since the advent of the ``talkies''. For the past 
100 years, movies have been distributed and projected on celluloid film 
prints. Today, the industry has nearly completed our transition to 
digital distribution and projection. Approximately 88 percent of the 
Nation's movie screens now use digital projection.
    Throughout this transition, NATO and our members have worked 
aggressively to ensure that the new theater systems would enable 
greater access for deaf and blind patrons. We first developed specific 
technology standards that called for digital cinema servers to be 
capable of playing narrative audio tracks and caption tracks when 
included in content distribution. Then our NATO members, led by Regal 
Cinemas of Knoxville, TN, worked closely with access equipment 
companies by providing technical guidance, cinema testing locations, 
design requirements, and other collaborative efforts. NATO members have 
organized hands-on demonstrations of prototype access equipment to 
representatives of the disabled community and to industry participants 
at large. At the same time, NATO took the lead public advocacy position 
within the broader movie studio, exhibition and equipment industries to 
promote captioning and descriptive audio.
    These efforts resulted in two important advances. First, all major 
movie distributors now provide captions and descriptions with virtually 
all of their major movie releases. NATO is grateful to the Motion 
Picture Association of America and their movie studio members for the 
supply of captioned and described movies. We are still working with 
some smaller distribution companies to get access to as many captioned 
and described movies as possible.
    Second, equipment vendors have created new systems to provide 
captioning and description in digital cinemas. These systems include:

    1. Ultra Stereo Labs CCR 100 and CCR 200 Closed Captioning 
Receivers: Gooseneck held, theater seat mounted screen with built in 
caption display that receives captions via infra red (CCR 100) or Wi Fi 
with Sony digital systems (CCR 200). Descriptive audio also available 
with 2 channel headset, IRH-230. Captioning and descriptive audio data 
supplied by studios.
    2. Doremi CaptiView Closed Captioning Receivers and Fidelio 
Descriptive Video Receivers: Gooseneck held, theater seat mounted 
screen with captioning display that receives captions and audio content 
via Wi Fi signals. Captioning and descriptive audio data supplied by 
studios.
    3. Sony's Entertainment Access Glasses and Audio Description 
receivers: Closed Captioning Eye Glasses that utilize unique 
holographic technology to display text in the direct line of sight of 
the user. A single receiver receives data for closed captions, 
descriptive audio data and also accommodates the use of neck loop 
technology. Captioning and descriptive audio data supplied by studios.
    4. Rear Window Captioning: Gooseneck held, theater seat mounted 
clear plastic panels that capture text displayed on the rear wall of an 
auditorium. Also capable of distributing descriptive audio to separate 
headsets. Captioning and descriptive audio data supplied by studios.

    The first three technologies listed above, from USL, Doremi and 
Sony, constitute first generation equipment that has become available 
in the digital cinema world. The Rear Window technology has been 
adapted from earlier systems that were also available in the film era.
 at least 53 percent of america's digital cinema screens are currently 
 enabled for closed captioning and video description, with more on the 
                                  way
    Over the past year the digital cinema transition has come to 
fruition, a much higher percentage of movies has been distributed with 
captions and descriptions, and the access equipment companies have 
rolled out their first generation devices. In response, America's 
cinema owners are installing captioning and description systems 
literally as fast as the manufacturers can produce them.
    We conducted a survey of our members that concluded on May 3d. 
Though we did not get responses from all 604 members, we did receive 
responses from members covering more than two-thirds of the digital 
cinema screens in the market. This extensive data suggests that more 
than 18,000 digital movie screens, or at least 53 percent of the total 
digital cinema market, are now enabled with equipment for captioning 
and description.
    For the most part, the access systems are first generation. As 
such, the industry has experienced the typical challenges associated 
with new technologies, including the need for greater staff training as 
well as design modifications.
    Equally important, the industry, along with advocacy groups and 
equipment companies, must work together to market and publicize the 
availability of these products. For their part, movie theaters are 
raising awareness of the availability of accessibility devices through 
myriad avenues, ranging from newspapers, press materials and signage at 
the box office to Face-book and company Web sites. Additionally, at the 
click of a mouse, moviegoers can search for accessible movies in any 
city or town in every State throughout the country via third-party Web 
sites like Fandango, MovieTickets and Captionfish.
    In the end, we hope as many deaf and blind patrons as possible 
attend our cinemas and have a great experience at the movies.
the movie industry's efforts make legislation or rulemaking unnecessary
    As a final note, we are aware that Chairman Harkin recently 
introduced legislation on this topic. We also understand that the 
Department of Justice has revealed plans for rulemaking. Our industry 
strongly opposes such legal government mandates. These proposals would 
only serve to enrich trial lawyers instead of improving access for the 
disabled community. I will save the details of our opposition to such 
efforts for another day. For today's purposes, I hope the committee 
members can see that the movie theater industry has been so proactive 
in expanding access to our cinemas that additional government 
regulation is simply unnecessary.
    Thank you.

    The Chairman. Thank you very much, Mr. Fithian.
    Now, we will start questioning here. I want to begin with 
Mr. Phillips and start with air travel.
    We heard from Mr. Charlson about the new Dreamliner. I have 
not been on one yet. I think they are going to get them back in 
service soon, I think, but all this new technology, the touch 
screens. Well, that does not help someone who is blind or 
visually impaired. And then from the movies that are there, do 
you have any feeling----
    For example, the last time I flew, not yesterday, but 
before, I was complaining to the flight attendant that there 
was, at that time, only one captioned movie on that whole 
entire set that I had. And she said to me, ``I hope you do 
something about it, because you are not the first person that 
has complained about it.''
    Again, how is the airline industry doing in terms of 
delivering entertainment content that is accessible to you? Are 
they doing better or not? I don't take every airline, but what 
do you know? Are they getting better at this?
    Mr. Phillips. In my opinion, the airline industry has done 
a terrible job of making their in-flight entertainment options 
accessible to the deaf and hard of hearing community.
    It really bothers me that when I fly other countries' 
airlines, I am often able to watch movies with English 
subtitles. And also today, the technology is readily available 
to add captioning support on those behind-the-seat screen 
devices. And many of the programs that are shown on airlines 
have already been captioned in theaters or elsewhere.
    About a year ago maybe, I had the experience, the unique 
experience of riding on an airline, and somehow that plane's 
in-flight entertainment was equipped with captioning support. 
It was connected to Direct TV, so apparently Direct TV systems 
support captioning, and that kind of system, you can imagine 
other airlines adopting. It is not requiring them to upgrade 
any devices that they have, but rather to have a certain kind 
of software program installed.
    The Chairman. Mr. Charlson, what do you see as the most 
important aspect of the 21st century Communication and Video 
Description Act for blind and low-vision consumers? And what is 
the biggest accessibility gap that maybe has not been addressed 
by the CVAA?
    What is the most important aspect and are there some 
accessibility gaps that have not been addressed by the CVAA?
    Mr. Charlson. For me, one of the most disappointing things 
about the first round of the CVAA is, as you have heard from 
the representative from the FCC, there are requirements that 
there be quite a bit more television available. However I, 
sitting in my living room, cannot turn it on or off. None of 
the onscreen menus currently allow me to independently turn on 
the audio description that I used to be able to turn off and on 
by the press of a single button.
    That is an example, not only of TV, but in terms of the in-
flight systems. Part of it is having the material available 
with audio description, but having it available with audio 
description but not have the ability to turn it on or off, or 
to select it, that is first and foremost, the biggest problem 
we have.
    We believe that there is value in convergence, where pieces 
of technology come together and perform many functions at the 
same time. We believe that there is value in rapid change 
because there were times that we had just one device to do 
Braille in the world. It was the Perkins Brailler, and it was 
the only device we had for doing Braille for 27 years. Knowing 
that these things are possible out there, and being just that 
close to being able to access them is the biggest hurt right 
now.
    I mentioned earlier, I have an iPhone in my hand here. This 
iPhone produces, not just for me as a blind person, but for 
everybody, everybody in the room who has an iPhone has the 
ability to make a touch screen accessible to them.
    We are not suggesting that we stay with an old-fashioned, 
hard-button approach. We can adopt new technologies, but 
keeping in mind from the beginning that these technologies have 
to be available for everybody in some fashion.
    The Chairman. You would think that after all this time that 
people who have designed these systems would, I would think, 
reach out to the deaf community and the blind community when 
they are designing these systems to ask what needs to be done. 
If they had, we might have had more voice-activated prompts, 
for example. If you have onscreen prompts, you can have voice-
activated prompts at the same time.
    My gosh, I think it has been, I don't know how many years 
ago that I bought a voice-activated channel changer for my TV. 
There were so many different things on that, buttons and stuff, 
so I got something that you just put in the voice commands, and 
you just tell it what to do, and it would automatically change 
the TV. That was years ago.
    I have got to believe that technology is much more advanced 
now, right, Ms. Beaumon?
    Ms. Beaumon. Yes, I think it is.
    The Chairman. That was several years ago, maybe, I won't 
say 10, but probably 6, or 7, or 8 years ago that I bought that 
device. And it still works today, but I am sure outdated by 
now. I guess I am just concerned that they are not reaching out 
to the community and asking for that kind of input.
    Now, Ms. Beaumon, when you in your social entrepreneurship 
and Bookshare, I assume you reached out to the community and 
asked them how it should be designed.
    Ms. Beaumon. Absolutely.
    The Chairman. I would think so.
    Ms. Beaumon. These are our users. I would say any good 
technology company wants to reach out to their users and ask, 
``What is it that you need and how does it need to work?''
    We definitely do that with the community that we serve, and 
I think sometimes maybe technology companies don't think about 
the entire community that they serve.
    I would say that when there are companies that do a good 
job of it--Mr. Charlson just went through some of the virtues 
of Apple and what they have done on their iPhones and iPads--I 
think that is when we all need to also stand up and say, ``Hey, 
look at them. This is an example of doing something really 
well.''
    I can remember seemingly overnight being scared to death in 
our community of touch screens and seeing some of the things 
Apple was doing, and having our users scream at us to make sure 
that we had a reading tool on an iPhone. That was before the 
iPad even came out, and we complied because our users were 
asking us for that.
    Yes, listening to the whole community is important. I think 
our community, anybody who is either representative of 
organizations like those around me, and others that know they 
have these needs, need to shout and companies need to listen. 
And when they do, consumers will come running as, I think, 
Brian is a really good example.
    Mr. Charlson. One thing I would like to mention, Senator, 
is yesterday I was in the city of Philadelphia at the request 
of Comcast, who brought together 10 members of the blind 
community to talk about the future of Comcast products all 
along the product line. I was delighted to see, in fact, it was 
across the board.
    We, in the consumer movement, don't wait until we ask or 
succeed in having Government describe something to us. We are 
proactive from day one, and occasionally we come across a 
partner like Comcast, like Apple, who step up to the plate 
before it is a regulation and hopefully, the rest of the 
industry will follow suit.
    The Chairman. Mr. Fithian, maybe you can clear up a 
question I had from your written testimony that I read and you 
also spoke from it.
    In that testimony, you said that your organization 
supported the ADA when it was being debated in Congress. Well, 
I should go back and inform you of some of the hearings I had 
here when your organization was not supporting it. One of the 
benefits of having been here this long, I remember those days. 
Later on, after we made some modifications, your organization 
then supported it.
    But nonetheless, we had testimony from movie theater owners 
sitting here telling us that setting aside seats for people 
with disabilities that, people did not use them. I had a 
theater owner, I can go back and I can find out exactly who it 
was who sat there. He said, ``Well, we set aside seats for 
people with disabilities and no one came and we wasted space.''
    My next questions were, ``Are you on a bus line? Does the 
bus come by you theater?'' ``Well, yes, it comes by a block or 
two away.'' ``Does the bus go at night? Does the bus operate 
late at night? Does it operate on Sundays, in the afternoons, 
and in the evenings?'' Well, he did not know.
    Well, it turned out that, no, the bus line did come a few 
blocks away. It was erratic. It did not operate late in the 
evening. It did not operate at certain times on Sunday. So I 
said, ``You set aside all these seats for people with 
disabilities, they cannot even get there.'' See, that is why 
the whole system has to be involved. There has to be a system 
approach to this.
    When I hear you say that you supported the ADA, then why at 
the end of your written testimony do you say your organization, 
and you said so here very pointedly, you said you strongly 
oppose the two bills that I have introduced, the legal 
Government mandates like the CINEMA Act or the new rulemaking 
from the Department of Justice.
    I guess my question is: is not the ADA a legal Government 
mandate? And does not the Department of Justice have a 
responsibility to clarify that mandated rulemaking? If you 
support the ADA that is a legal Government mandate.
    So differentiate the ADA from what we are trying to do 
here. Why is there a difference?
    Mr. Fithian. Absolutely, there is a big difference, Mr. 
Chairman. And the ADA, I believe, was necessary because in most 
aspects of public accommodation, the disabled were being 
discriminated against, and the ADA had a tremendous impact on 
expanding accessibility for so many different types of disabled 
folks in this country.
    Our argument about S. 555--and we have not taken a position 
on your airline bill because that is not my purview--but 
arguments about S. 555 is that what you want to happen is 
already happening, and that our industry is out there 
proactively getting access for deaf and blind patrons in our 
theaters all across the country. We are over halfway done now, 
and it would only slow down our progress to have legislation 
come in now.
    Because what happens with legislation in an area where the 
industry is already acting is that we end up spending our time 
in court instead of spending our time putting in equipment. And 
so we think we are going to meet the targets and the goals of 
the legislation without the need for the legislation.
    Another way to answer the question is the Department of 
Justice had an advanced notice of proposed rulemaking in which 
they suggested in a question and answer format, what if they 
required 50 percent of our theaters to have captioning over a 
5-year period; in other words, 10 percent per year over 5 
years. That rule has not even become final yet, and we have 
already exceeded that expectation.
    And so my point is, there is a role for Government when 
industry is not acting. But when the industry is acting 
proactively, maybe the Government should support those 
voluntary actions instead of legislating.
    The Chairman. Well, you point that 88 percent of the 
Nation's move screens now use digital projection, right?
    Mr. Fithian. That is correct.
    The Chairman. But now you say the extensive data suggests 
that more than 18,000 digital movie screens or 53 percent are 
now enabled with equipment for captioning and description. So 
53 percent does not equal 88 percent.
    Mr. Fithian. Not yet, but we are quite on our way. In fact, 
most of the devices we are currently installing were not 
perfected until the last year.
    We held technology demonstrations in 2007 and 2010, invited 
in advocates for the deaf and the blind to test our equipment, 
give us comments. We then had to work with the vendors to get 
the equipment online, and most of these devices have only been 
available for the last year or so.
    One device in WGBH has been around for a very long time, 
but most of the devices that we are installing have only been 
around for a year. We literally have more orders on place now 
than the equipment vendors can satisfy. Part of the reason why 
we are at 53 percent and not 88 percent is that it is on order.
    Many towns across the country have some where we have 
ordered the devices and they are coming as fast as they can 
manufacture them. In that kind of an environment, that is why 
we suggest that rulemaking is not necessary.
    The Chairman. So you think that our bill that says it has 
to be completed in 1 year is too fast?
    Mr. Fithian. Oh, I think there are lots of issues with your 
legislation. We can go through the details if you want to. The 
key point is that----
    The Chairman. I think, Mr. Fithian, you should.
    Mr. Fithian. OK.
    The Chairman. Not today, but submit it in writing. We would 
like to take a look at it and see what your objections are.
    Mr. Fithian. I would be delighted to do that, sir.
    The Chairman. Because you just said one thing that 
indicates a little bit to me that you may not be reaching out 
completely to the deaf and hard of hearing community because 
you said that you wish you'd had that system for the 
``Lincoln'' movie that I saw.
    Mr. Fithian. May I ask you where you saw the screening with 
Mr. Spielberg?
    The Chairman. Over in the CVC, in our auditorium there.
    Mr. Fithian. Right. If that screening had been held at any 
of our commercial cinemas in Washington, DC we would have had 
assisted listening devices for the hearing impaired in those 
cinemas. We have them in every cinema in the country.
    The Chairman. You do not understand something. That is why 
I say you have got to reach out to the audiology community 
about this.
    There is something you do not understand, and I will give 
you a little lesson in it right now. You could jack up that 
volume all you want, and I still would not be able to 
understand what was going on in ``Lincoln''. And there are 
millions of people like me. Yes, I do have a hearing problem in 
terms of volume, but that is not the real problem.
    The real problem is the auditory nerve that goes from my 
ear to my brain does not operate as rapidly as it used to. 
Therefore, if there are variations in volume, some one is 
speaking loud and then someone is whispering, that auditory 
nerve does not pick that up fast enough, and you cannot 
understand it.
    The second thing is that people speak very rapidly in a 
movie. I don't care how loud you turn it up, you cannot 
understand it.
    Now, I would suggest that you might reach out to the 
audiology community in America, the audiologists and ask them 
about this. It is not just me. There are millions of people 
like this. It is not just the volume, it is understanding what 
people say and how they say it. That is why you need 
captioning.
    As I told the producers of that movie, I said, ``I don't 
care how much you turn up that volume, the variation in volume 
and the rapidity with which some people are speaking, I cannot 
get it.''
    I told you, I just watched a movie on the plane the other 
day coming back from Los Angeles, and it was Billy Crystal and 
Bette Midler in ``Parental Guidance.'' I turned it on because 
it was one of two that had closed-captions. I turned it on and 
I turned it off--I was just trying an experiment because my 
wife was with me--so I turned off the closed-caption. I could 
hear it, but Billy Crystal speaks very rapidly and there were a 
lot of funny lines going on. I could not understand it. I 
turned on the closed-captioning, I got it. I got it.
    It has also been my experience, being involved with a lot 
of hard of hearing people that, again, it is not just the 
volume in the theaters. It is being able to read it so that it 
gets from here to the brain, from the eye to the brain because 
the ear to the brain is not working all that well. It is not 
just volume. It is something else; it is being able to read it.
    My experience has been, with a lot of hard of hearing 
people, maybe not the profoundly deaf, but I am talking about 
hard of hearing people as they get older is that if they have 
never seen movies with captions and then they start seeing it, 
they don't want to go back. They want to see every movie with a 
caption because they understand it more fully. Again, it is not 
just volume. It is not just volume.
    And you say that people will not go to see a movie with 
captions; you said if there are two theaters, one showing 
captions, they will not go to that one. Well, I don't know. I 
would like to see data on that and I would like to see what 
kind of marketing is done. Again, marketing, marketing is 
important on these things.
    I am all for looking at these devices--the glasses, the cup 
holder device that is put there--those are all interesting 
technologies.
    Ms. Beaumon, I understand that there is some new technology 
coming along that will allow (like on television screens), you 
can put closed-captioning digitally on the screen, but it can 
only be seen if you have certain glasses on. It is like a pair 
of 3-D glasses or something that will pick it up.
    Are you familiar with that kind of technology?
    Ms. Beaumon. This is not an area I am directly involved 
with, so sorry.
    The Chairman. Have you heard of that, Mr. Fithian?
    Mr. Fithian. I have not.
    The Chairman. Well, maybe Mr. Phillips knows something.
    Mr. Phillips. Senator, yes. I have heard about the concept, 
the ability of a prototype. I don't think anything has been 
created or implemented. I think there is perhaps hope for the 
future, but I am not sure how far down the road that is and 
what will happen.
    The Chairman. Well, I will have my staff look at that some 
more. I need to find out because I have heard about this new 
technology that would enable that.
    Again, I am sorry you are opposed to this legislation, Mr. 
Fithian, and that the theater owners are opposed to it just 
because you are doing it. You say you are doing it, so 
therefore you don't need the Government to come in and say you 
should do it because then you will be in court.
    Well, if you are doing it, why would you be in court?
    Mr. Fithian. Well, there is a role of Government in 
bringing attention to issues and things like this hearing are 
extraordinarily useful in bringing together industry with 
advocates for the deaf and the blind, and the creators of the 
technologies, it is a very useful function for the Government.
    I note that I am the only industry rep here, which is 
always a dangerous circumstance to be in, but nonetheless, we 
believe we have a very good proactive story to tell. And unlike 
the other industry for your other bill who is not here 
testifying about their voluntary actions, we are here 
testifying about our voluntary actions because we have spent 
millions of dollars and countless research hours trying to find 
the best ways to develop captioning, exactly what you are 
calling for. Not just assisted listening devices, but actual 
captioning with three different types of devices where the 
consumer can manipulate the data and make the font size or the 
colors the way it takes for them to be able to read those 
captions and enjoy our movies because we want deaf and blind 
people to come to our movies and enjoy movies at the cinemas.
    That is a lost population and a group of patrons for us. 
That is why we are working so hard and over halfway through 
getting these installations done to let them come to our 
cinemas.
    But the reason why we do not want legislation is because it 
will distract us from the positive actions that we are taking. 
There are trial lawyers that will take advantage of the 
legislation to try and challenge us on every possible respect.
    I mean, for example, your legislation requires both open 
and closed-captioning of the same movies at the same time. 
Well, that means that we would have captions up on the screen 
and we would have captions in the device, which would be great 
for our deaf patrons, but it would not work for our hearing 
patrons. They do not want captions on the screen.
    We like to provide choices, but there are just problems 
with your legislation that we would end up fighting about in 
court, as opposed to spending our time and our money doing what 
we are doing, which is rapidly advancing the cause of access 
for deaf and blind movie patrons in this country.
    The Chairman. Mr. Fithian, when I first introduced the 
Americans with Disabilities Act, it is not the same as what got 
passed because we had testimony from a lot of different people. 
That is the pathway of legislation.
    If you come here and you say you have suggestions on how it 
should be changed or modified to make it workable, we have an 
open door.
    Mr. Fithian. I would be delighted to do that, more than 
happy.
    The Chairman. But when you come in and say that, we are 
going to check with the disability community to see how that 
comports with them also. There will be this open process of 
back and forth until we finally, as I say, hit that sweet spot 
where the disability community is happy with it, theater owners 
can live with it and can do that, and where, again, we do not 
close the door on new technologies. I never want to do that. I 
want to leave it open so that whatever new technology comes 
along can be adapted here.
    We did that in the ADA. There is a lot of language in the 
ADA that speaks about emerging technologies. We did not know 
what was coming along, but we knew it was changing rapidly. If 
you have suggestions on that, we are more than happy to take 
that into consideration.
    But just to blatantly say, ``We oppose that just because we 
are doing it,'' there are a lot of things happening in this 
country that people are doing here and there, but which we want 
more of a national kind of view on a national cloak, for 
example, over that. So that people understand it is not just a 
bit by bit thing, but it is going to be comprehensive in its 
nature, which leads me to one last question for all of you.
    I forget who it was that said this, maybe it was Ms. 
Beaumon, maybe. You talked about the international aspects.
    Ms. Beaumon. Yes.
    The Chairman. And this Treaty. When is that Treaty going to 
be finalized?
    Ms. Beaumon. That is a very good question. The Treaty, 
which I referred to earlier, is before the World Intellectual 
Property Organization, and it deals with books being able to 
cross borders, but it also deals with countries that do not 
currently have copyright exceptions like our Chaffee amendment 
being able to have them.
    We talk to people in countries where literally somebody who 
is blind or visually impaired has no books. There is a book 
famine and much like because of the Chafee amendment, Bookshare 
has been able to really do a lot of great services, as have 
other groups in the United States. We want that to be available 
to people all over the world.
    There are major meetings next month. There has been a lot 
of hope that that might even be a wrap up time. I will say now, 
there have been some serious issues reintroduced that really 
would weaken the Treaty, cause undue burdens for libraries 
around the world like us, and literally making it almost un-
implementable. And some of which do not comply with U.S. law, 
so I am a little confused about how the United States would 
then ratify it even if it got passed.
    The Chairman. My staff just reminded me that we sent a 
letter to the President just last month encouraging him to get 
behind this and support this.
    Ms. Beaumon. Good. Thank you.
    The Chairman. And hopefully we can get that done soon.
    Ms. Beaumon. Thank you.
    The Chairman. Is there anything else, questions that I did 
not ask, or anything else that any of you wanted to impart for 
the record here before I close the hearing down?
    Mr. Charlson. I would like to speak to one thing.
    The Chairman. Yes, sir.
    Mr. Charlson. And that is the value of some standards 
associated with this process.
    I make my living teaching people to use technologies and 
the technologies can change rapidly. And in order to go through 
a regular day of doing the things that sighted people take for 
granted, they might have to know how to use five or six 
different, fundamentally different technologies.
    When you are trying to do something as social as going to 
the movies, as social as interacting with that seatback screen 
in front of you, it is really an unfortunate burden for them to 
sit down each time and have to learn it all over again.
    We do not experience life as a point and click experience. 
It is a linear experience from top left to bottom right. And 
for us to use any of these pieces of equipment requires that we 
not figure it out on the fly, but that we learn in advance in 
order to take full advantage of it.
    I think one of the values of a Government involvement in 
this process is to establish standards so that I can go to a 
movie theater while I am visiting in Washington, DC and not 
miss the first third of it as I am learning how to use the 
system.
    The Chairman. That is an interesting point; very well 
taken. I am going to, again, take another look at our 
legislation to see how it comports with that idea. That is very 
important, standardization nationwide.
    Anybody else got anything? Yes, Mr. Phillips.
    Mr. Phillips. I wanted to say that the National Association 
of the Deaf fully supports Senate bill 555 and 556. We think 
one of the important aspects of 556 is that it would require 
open captioning be for deaf and hard of hearing patrons in the 
theaters.
    These assistive devices are not usable or comfortable, as I 
have said, and people want to be able to watch the movies with 
open captioning. I just wanted to underscore that point.
    The Chairman. I appreciate that. Anything else anybody has 
that they want to impart to this?
    Mr. Charlson made a good point about standardization. I do 
not know if that is what NATO is doing or not, but 
standardization would be vitally important from a national 
standpoint.
    Mr. Fithian. We have done a tremendous amount of work on 
standards for access in digital cinema from the outset, before 
we designed the systems, not just the devices, but how they 
interplay with the digital cinema files and the content, and 
servers, and how they get distributed so that we have multiple 
types of equipment in the field that are competitive, but 
compatible and interoperable.
    We ran these systems by many advocates for the deaf as we 
were developing, and we welcome the suggestion on 
standardization on how to make sure that our patrons with 
disabilities know how to use the equipment before they get 
there. Because the comment was absolutely correct that we need 
folks to understand how these systems work before they come 
into our cinemas.
    Currently, for example, the captioning only kicks-in when 
the feature film starts, and by then if you do not know how to 
use the system or the system is not working properly, it is 
almost too late. We work with the movie studios and our theater 
companies to put content earlier in the preshow that is 
captioned so that our patrons can test the equipment before the 
feature film actually comes on.
    And the more we can do to test the equipment early with our 
patrons in the cinemas or train them before they are even 
there, the more deaf and blind patrons we would hope to come to 
our cinemas.
    We welcome, absolutely, the idea on suggested training and 
standardization.
    The Chairman. Thank you very much.
    I want to thank all the witnesses for their testimony and 
their leadership in this critical issue of improving 
accessibility of entertainment technologies.
    I may have been a little hard on Mr. Fithian, but I 
appreciate what the theater owners are doing, believe me. You 
are moving ahead very rapidly and I appreciate that.
    Mr. Fithian. Thank you.
    The Chairman. I would like to go back to the theater. I do 
not go to movies anymore. I love going to movies. There is 
something about being in a movie theater and going to movies, I 
do not go any longer because I cannot understand them. So I 
have to wait until it comes out with subtitles and I watch it 
at home, and I am not alone.
    There are millions of Americans like that, millions out 
there that do not go to the theater because of that.
    Well, we have made significant progress since ADA and 
access to entertainment technologies. But again, we need to go 
further. I hope we can build on the two decades of experience 
with the ADA and accelerate the progress so that Mr. Phillips' 
peers and others in the ADA generation will be able to 
experience truly equal access to entertainment content in their 
lifetimes.
    Passing the CINEMA Act and the Air Carrier Access 
Amendments Act would be two concrete steps in that direction. I 
look forward to working with Senator Alexander and other 
members of this committee to address this issue, and to ensure 
that we have legislation that is meaningful, and will address 
this issue promptly.
    We will leave the record open for 10 days to allow 
additional statements or supplements to be submitted for the 
record.
    The hearing of the Committee on Health, Education, Labor, 
and Pensions stands adjourned.
    Thank you very much everyone.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

      Response to Question of Senator Alexander by Andrew Phillips

    Question. You mentioned that you have a preference for open 
captions, whereas others might have a preference for closed captions. 
How do you recommend the movie industry best serve the wide variety of 
preferences they encounter?
    Answer. The National Association of the Deaf urges theaters to 
offer both captioning options. Many theaters already offer closed 
captioning access through personal captioning devices. They should 
continue doing so, but consult with the deaf and hard of hearing 
community about which devices work best. In addition to such personal 
captioning devices, the transition to digital cinema in theaters has 
made it possible to turn open captions on and off in theaters without 
the use of special equipment or added costs, much like what can be done 
at home on one's television. Some patrons experience difficulties with 
all the different personal captioning devices available in theaters. As 
a result, theaters should offer personal captioning devices to those 
who need them and enable open captions when requested by deaf or hard 
of hearing patrons.

      Response to Questions of Senator Alexander by Betsy Beaumon

    Question 1. How do you suggest that we best foster innovation?
    Answer 1. We believe in pay for performance. Innovation is fostered 
by rewarding the people who deliver better, cheaper, and faster. Fund a 
certain amount of activities that allow innovators to try new things. 
Finally, don't try to legislate how they solve the problem, but rather 
what problem to solve.

    Question 2. You mentioned that to ensure technological growth it's 
critical to avoid trying to legislate specific technologies or formats, 
which often change faster than the law can keep up. What guidelines do 
you think the Federal Government should keep in mind to stop this from 
happening?
    Answer 2. As above, the best approach is to focus on outcomes--in 
this case on requirements rather than a specific technological 
approach. The challenge is to create legislation with enough detail to 
allow effective new technologies to be included, while not being overly 
specific in a way that narrows the opportunities to innovate in 
entirely new ways. An example of a fairly effective middle ground on 
technology (with some issues in other aspects of the law) was the 
Chafee amendment in the copyright law. The legislators were forward-
looking enough in 1996 to include support for digital text, which was 
not in common use for books quite yet at that point, but has become the 
way forward for all e-books. They avoided being overly specific and 
naming a specific format or standard, which would have dated the law 
very quickly. In contrast, in IDEA 2004, where a specific standard was 
legislated (NIMAS), it requires the standard itself be updated to keep 
up with new changes in technology, which involves a significant 
bureaucratic process. In all such decisions, getting input from 
technologists in the field, with diverse points of view and interests, 
is critical.

       Response to Question of Senator Alexander by John Fithian

    Question. How can we support companies like Regal to expand 
accessibility and not hinder the ability of private industry to grow?
    Answer. Thank you for this opportunity to respond to your inquiry. 
Our industry can rightly lay claim to enormous progress on the access 
issues that gave rise to the above-titled hearing held by the Senate 
Health, Education, Labor, and Pensions (HELP) Committee on May 14, 
2013. Despite this significant progress, NATO's members will not waiver 
in their firm, demonstrated commitment to ensure that cinemas 
throughout the Nation continue to enable greater access for hearing and 
visually impaired moviegoers. NATO, however, believes both logic and 
experience demonstrate that imposing legislative and regulatory 
mandates would hinder, 
rather than spur, further innovation and deployment of access-enabling 
technologies in America's cinemas. Rather than supporting such a 
regulatory approach, therefore, we agree with Ranking Member 
Alexander's recent remarks that the best way to increase access for 
individuals with disabilities is to ensure that the private sector and 
government work closely and cooperatively together to achieve our 
shared access goals. If we adopt this course, we know the market will 
continue to drive an optimal, comprehensive set of solutions to access 
problems scaled to the needs of all communities that regulation would 
never produce.
    As Senator Alexander noted during the hearing, businesses and 
organizations are taking the lead in making entertainment and other 
enriching cultural endeavors more accessible for disabled individuals. 
NATO joins Senator Alexander in proudly acknowledging these efforts on 
the part of the private sector, including Regal's leadership in 
spearheading greater access for moviegoers who are hearing and visually 
impaired. As has been widely reported, Regal will, by the end of the 
month, have distributed cutting-edge closed captioning glasses to its 
more than 6,000 screens throughout the country. This was not done in 
response to regulatory coercion, but to Regal's pursuit of valuable 
hearing and visually impaired customers, as well as the company's 
commitment to equal access in principle.
    Moreover, Regal is not alone in making a concerted, unrelenting 
effort to increase access for moviegoers who may be deaf, hard of 
hearing, blind or otherwise visually impaired. As I related during my 
testimony before the HELP Committee, the movie theater industry is in 
the midst of a dramatic conversion to digital cinema systems that 
enable widespread installation of closed captioning and descriptive 
audio devices. NATO and its members have spent hundreds of millions of 
dollars and countless working hours to increase access to cinemas 
operating in our Nation's largest cities and smallest towns. As a 
result of the proactive and voluntary initiatives of our members, more 
than 18,000 screens in the United States--over half of all current 
digital cinema auditoriums--now have captioning and description 
technologies, and the number is growing daily.
    Both the CINEMA Act (S. 555) and current proposed Department of 
Justice rulemakings were construed without regard to or comprehension 
of the scale, pace or success of current voluntary efforts by the 
cinema industry to expand access. The market has already simply 
outpaced the aspirations and mechanisms of these regulatory efforts and 
that positive trend will continue if left unburdened by regulatory 
intervention. NATO, therefore, strongly opposes such coercive 
government mandates not only as demonstrably unnecessary in light of 
the voluntary progress the movie industry is making every day on access 
issues, but for being potentially disruptive to the progress Congress 
and all access stakeholders share. NATO believes such mandates threaten 
to disrupt the current pace of progress and stifle technological 
innovation, not only by creating obvious incentives for trial lawyers 
to sacrifice those goals in pursuit of opportunities legislation would 
create for their own enrichment, but also by placing expensive, 
inflexible compliance burdens on small businesses even as they are 
trying mightily to address access issues in a difficult economy.
    Main street cinemas, anchors of communities throughout the Nation, 
understand the need for commonsense regulations, but aggressive efforts 
by lawmakers to micromanage operations undercut their growth and 
contributions to the communities they serve. The vast majority of NATO 
members are small businesses with fewer than 20 screens, which 
typically lack a construction department, in-house architects, staff 
attorneys and regulatory affairs specialists. For most cinemas, the 
owner/operator is solely responsible for regulatory compliance, 
including ensuring that new construction, renovations and alterations 
meet the requirements of the ADA. Given the already tough economic 
environment and expensive conversion to digital cinema systems that is 
unlocking progress on access issues, some movie theaters could be 
forced to close due to the negative effects of additional, unneeded 
regulations--particularly in small and low-income communities. This 
would also have a ripple effect on local economies, causing a decline 
in retail and restaurant traffic when patronage from neighboring 
cinemas disappears.
    While NATO is convinced that additional regulation is not the way 
to increase access to entertainment and other cultural endeavors, we 
know the private sector needs to work with other groups to highlight 
existing and needed technological advancements in accessibility. NATO 
and its members want all disabled moviegoers to feel welcome in 
attending our cinemas and have access to a great experience at the 
movies--and we are working toward that goal every day. To spur 
innovation and promote greater access, NATO members have: (1) provided 
technical guidance, cinema testing locations, design requirements and 
other aid to access equipment companies; (2) organized hands-on 
demonstrations of prototype access equipment to representatives of the 
disabled community and industry participants; and (3) taken the lead 
public advocacy position in the movie industry to promote closed 
captioning and video description using newspapers, company and third-
party Web sites, box office signage and other press materials. Prior to 
and since the HELP Committee hearing, NATO has been in active dialog 
with policymakers at the State and Federal level, as well as 
representatives of the hearing and visually impaired communities, to 
address their concerns.
    But more can and must be done through healthy collaboration. We 
welcome the opportunity to continue our work with the government, 
advocacy groups and equipment manufacturers to improve and publicize 
the availability of access-enabling technologies like closed captioning 
and video description systems. For its part, NATO will continue to 
reach out to lawmakers, regulators and the disabled community to 
provide updates on the progress of accessibility device innovations and 
installations at movie theaters. We also encourage the government to 
facilitate an open dialog among places of public accommodation, 
manufacturers and the disabled community, through which these entities 
work together to identify what does and does not work and develop best 
practices on how to provide the public with information on 
accessibility friendly entertainment attractions.

    [Whereupon, at 4:15 p.m., the hearing was adjourned.]

                                   [all]
                                   

      
</pre></body></html>
